   Social Security Administration
   Office of the Inspector General


Semiannual Report to Congress
    October 1, 2009 - March 31, 2010
           Social Security Administration
           Office of the Inspector General




                    Mission Statement
By conducting independent and objective audits, evaluations,
and investigations, we inspire public confidence in the
integrity and security of SSA’s programs and operations
and protect them against fraud, waste, and abuse. We
provide timely, useful, and reliable information and advice
to Administration officials, Congress, and the public.


                    Vision and Values
We strive for continual improvement in SSA’s programs,
operations, and management by proactively seeking new
ways to prevent and deter fraud, waste, and abuse. We
commit to integrity and excellence by supporting an
environment that provides a valuable public service while
encouraging employee development and retention and
fostering diversity and innovation.
                                                                              Semiannual Report to Congress




            A Message from the Inspector General
          The Social Security Administration has not been
          free from the effects of the recovering United States
          economy. The number of beneficiaries has risen while
          program revenue has fallen, because jobs have been
          cut and Americans have applied for benefits sooner
          than they had planned. It is a critical time, then, for the
          SSA Office of the Inspector General, which follows a
          core mission of protecting and improving the Agency
          and its programs.
          In this Semiannual Report to Congress, covering
          the period October 1, 2009 through March 31,
          2010, I am pleased to present to the 111th Congress
          our most significant audit, investigative, and legal
          accomplishments. Even during times of economic challenge and increasing workloads,
          we have maintained a focus on persistent management challenges like the disability
          backlog, as well as on high-priority investigations, such as those targeting individuals who
          fail to report their work activity to the SSA and fraudulently receive disability benefits.
          Also during this reporting period, we continued our oversight and audit of Social Security
          programs, projects, and activities funded by the American Recovery and Reinvestment Act
          of 2009. Our audit work, including reviews of staffing levels in Social Security offices
          and the Agency’s plan for a new National Computer Center, assesses whether funds are
          used for authorized purposes and identifies instances of fraud, waste, and abuse.
          Employee safety has also become a critical issue for Social Security. As the Agency
          provides program benefits to more and more Americans, the possibility of encountering
          an unruly or even threatening customer increases. My office investigated several threats
          against Social Security employees during this reporting period, and we have made worker
          safety training and preparedness a priority moving forward.
          These are challenging days, but this office’s nearly 600 employees remain dedicated to
          inspiring confidence in the integrity and security of these programs, and we strive to
          protect them against fraud, waste, and abuse. I assure you that my office will continue
          to work with the SSA and the Congress to strengthen the programs that provide timely
          and accurate benefits to Americans who rely on them.



          S
          Patrick P. O’Carroll, Jr.
          Inspector General




October 1, 2009 - March 31, 2010                                                                         1
                                                                                                                              Semiannual Report to Congress




                 Social Security A dministration
                 Office of the Inspector General




                                               Table                     of         Contents
                     A M essage                 from the Inspector                               General.................................. 1

                     Executive Summary.......................................................................................4

                     Introduction                        to      Our Organization..................................... 6

                     Impact...........................................................................................................................8

                     Value..........................................................................................................................22

                     People........................................................................................................................ 36

                     R eporting R equirements                                      and         A ppendices.......................... 39

                     Glossary                of      Acronyms.......................................................................... 59




October 1, 2009 - March 31, 2010                                                                                                                          3
Semiannual Report to Congress




EXECUTIVE SUMMARY
This report presents the significant accomplishments of the Social Security Administration (SSA) Office of the
Inspector General (OIG) from October 1, 2009 through March 31, 2010. The report is organized according
to three major goals—impact, value, and people—set forth in the OIG Strategic Plan: Fiscal Years (FY) 2006
– 2010, Fifth Edition.

Impact
    We work to have a positive impact on SSA programs and operations by enhancing their integrity, efficiency, and
    effectiveness. During this reporting period, we received more than 75,000 allegations from SSA employees,
    Congress, the public, law enforcement agencies, and other sources. Our agents closed more than 3,700
    criminal investigations, resulting in over 300 arrests, over 400 indictments and informations, 794 criminal
    convictions (including pretrial diversions) and 69 civil judgments/civil monetary penalty (CMP) assessments.
    During this reporting period, our agents also secured 6 indictments and 8 convictions for fraudulent activity
    related to Hurricanes Katrina and Rita, and they continued to work with law enforcement agencies to arrest
    subjects identified through the Fugitive Felon Program. Highlighted investigations in this section relate to
    Social Security number (SSN) misuse, employee misconduct, and hurricane response efforts.
    Our auditors also had a significant impact during this reporting period, issuing 42 reports and making
    recommendations on a wide variety of challenges facing the Agency. Our audit work over the past six
    months included reviews of SSA’s initiatives connected to the American Recovery and Reinvestment Act of
    2009 (Recovery Act), the impact of state budget issues on SSA’s disability programs, and hearing office
    performance and staffing.

Value
    Our organization strives to provide valuable products and services in a timely manner to Congress, SSA, and
    other key decision makers while sustaining a positive return for each tax dollar invested in OIG activities.
    During this reporting period, our auditors identified more than $1.3 billion in questioned costs and about
    $2.06 billion in Federal funds that could be put to better use. Highlighted audits include the financial impact
    of conducting fewer full medical continuing disability reviews (CDRs), and identifying Supplemental Security
    Income (SSI) recipients who were potentially eligible for Department of Veterans Affairs (VA) benefits.
    In the first half of FY 2010, we are reporting over $173 million in monetary accomplishments, with over
    $29.5 million in SSA recoveries, restitution, fines, settlements, and judgments; and over $143.5 million in
    projected savings from investigations resulting in the suspension or termination of benefits. In addition,
    we participated in multi-agency investigations that resulted in over $25 million in savings, restitution, and
    recoveries for other agencies. Highlighted investigations in this section relate to representative payee fraud
    and concealment of work activity in order to collect disability benefits.
    Our Cooperative Disability Investigations (CDI) Program continues to be one of our most successful initiatives,
    contributing to the integrity of SSA’s disability programs. The efforts of our CDI Units during this reporting
    period resulted in more than $117 million in SSA program savings.
    During this reporting period, our attorneys initiated 74 CMP actions (Section 1129 cases) that involved
    false statements, representations, or omissions made in connection with obtaining or retaining benefits or
    payments under Titles II (Federal Old-Age, Survivors, and Disability Insurance Benefits) and XVI (Supplemental
    Security Income) of the Social Security Act (the Act). Included in our investigative accomplishments above
    is nearly $2 million in penalties and assessments that our attorneys imposed through our CMP program.

4                                                                            October 1, 2009 - March 31, 2010
                                                                             Semiannual Report to Congress




People
  The collective efforts of our employees continue to be the driving force behind this organization’s success in
  achieving its mission. We provide an encouraging and rewarding work experience with the goal of retaining
  these exceptional individuals. OIG leadership fosters an environment where employees can realize their
  potential through training and developmental programs. OIG components convene training sessions to
  inform their employees about new procedures and share best practices.
  In addition, the OIG Organizational Health Committee annually assesses employee satisfaction levels and
  addresses employee concerns. The Agency and the Office of Personnel Management use a baseline of 65
  percent of employees responding positively (e.g., strongly agree or agree) to measure the statistical strength
  of an organization. Using that definition of statistical strength, 12 of the 13 questions on the OIG survey
  had scores above 65 percent, demonstrating that the health of the OIG organization is strong. Question
  12 of this survey asks “Considering everything, how satisfied are you with your job?” Eighty-two percent of
  our employees indicated that they are either satisfied or very satisfied with their job, which is significantly
  higher than the 70 percent rate reported for SSA employees.




October 1, 2009 - March 31, 2010                                                                               5
Semiannual Report to Congress




INTRODUCTION TO OUR ORGANIZATION
The SSA OIG is comprised of the Immediate Office of the Inspector General and five major components:
the Offices of Audit, Counsel, External Relations, Investigations, and Technology and Resource Management.

Immediate Office of the Inspector General
    The Immediate Office of the Inspector General (IO) provides the Inspector General with staff assistance on
    the full range of his responsibilities. IO staff provides liaison with all agencies sharing common interests with
    OIG and ensures coordination with congressional committees, SSA, the Social Security Advisory Board, and
    the Council of Inspectors General on Integrity and Efficiency. IO includes the Office of Quality Assurance
    and Professional Responsibility (OQAPR), which performs two critical functions. First, it conducts exhaustive
    reviews of each of the OIG’s component offices to ensure compliance with Federal laws and regulations,
    Agency policies, and relevant professional standards. Second, OQAPR conducts thorough and timely
    investigations into allegations of misconduct by an OIG employee.

Office of Audit
    The Office of Audit (OA) conducts and supervises financial and performance audits of SSA programs and
    operations, and makes recommendations to ensure that program goals are achieved effectively and efficiently.
    Financial audits determine whether SSA’s financial statements fairly present SSA’s financial position, results
    of operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
    programs and operations. OA also conducts short-term management and program evaluations, and other
    projects on issues of concern to SSA, Congress, and the general public.


Office of the Counsel
to the Inspector General
    The Office of the Counsel to the
    Inspector General (OCIG) provides
    independent legal advice and counsel to
    the Inspector General on a wide range
    of issues, including statutes, regulations,
    legislation, and policy directives. OCIG
    also administers the CMP program,
    and advises the Inspector General on
    investigative procedures and techniques,
    as well as on the legal implications of
    audit and investigative affairs.




6                                                                              October 1, 2009 - March 31, 2010
                                                                            Semiannual Report to Congress




Office of External Relations
  The Office of External Relations (OER) develops the OIG’s media and public information policies, directs
  OIG’s external and public affairs programs, and handles congressional, media, and public requests for
  information. OER is responsible for preparing OIG publications and presentations to internal and external
  organizations, and coordinating the OIG’s presence at SSA and other Federal events. In addition, OER
  prepares the OIG Semiannual Report to Congress and congressional testimony, and coordinates with SSA’s
  Offices of Communications and Legislation and Congressional Affairs.


Office of Investigations
  The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud, waste,
  abuse, and mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
  beneficiaries, contractors, and third parties, as well as by SSA employees while performing their official
  duties. This office serves as the OIG’s liaison to the Department of Justice (DOJ) on all matters relating to
  the investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal,
  State, and local law enforcement agencies.


Office of Technology and Resource Management
  The Office of Technology and Resource Management (OTRM) provides administrative support to the Inspector
  General and OIG components. OTRM formulates and executes the OIG budget, and is responsible for
  strategic planning, performance reporting, and facility and property management. OTRM manages a national
  human resources program and develops and maintains the OIG’s administrative policies and procedures.
  OTRM also maintains hardware, software, and telecommunications networks to support the OIG’s mission.
  Finally, OTRM manages the OIG’s Allegation Management and Fugitive Enforcement Division and Electronic
  Crimes Division.




October 1, 2009 - March 31, 2010                                                                             7
Semiannual Report to Congress




IMPACT
The first goal of the OIG Strategic Plan is Impact. We are committed to enhancing SSA’s effectiveness
and efficiency through our investigative, audit, and legal activities. We strive to have maximum impact on SSA’s
programs and operations to ensure their continued integrity and reliability. During this reporting period, we
completed numerous audits, investigations, and legal initiatives covering major SSA program and management
areas, which had a significant impact on the detection and prevention of fraud, waste, and abuse. The
summaries presented below are indicative of our work over the past six months.

Audit Impact Initiatives
    OA contributes to this strategic goal by conducting and supervising comprehensive financial and performance
    audits and by making recommendations to maximize the effective operations of Social Security programs.
    These audits, along with short-term management and program evaluations, focus on those SSA programs
    and activities most vulnerable to fraud and abuse.

American Recovery and Reinvestment Act of 2009

    On February 17, 2009, the President signed into law the Recovery Act, P.L. 111-5. The Administration is
    committed to investing Recovery Act funds with an unprecedented level of transparency and accountability
    so Americans know where their tax dollars are going and how they are being spent. SSA was provided funds
    under the Recovery Act in the following areas:
    • $500 million designated for the replacement of SSA’s National Computer Center (NCC);
    • $500 million designated for processing disability and retirement workloads, and information technology
    acquisitions and research in support of these workloads; and,
    • $90 million to reimburse costs for processing a one-time economic recovery payment (ERP) of $250 to
    millions of qualified individuals receiving Social Security benefits and/or SSI.
    Congress provided our office $2 million to conduct oversight of SSA programs, projects, and activities
    funded by the Recovery Act. During this reporting period, we issued five reports related to the Recovery Act.
    During this semiannual period, our Recovery Act oversight focused on staffing plans at various SSA offices
    and Recovery Act data quality reviews.




8                                                                           October 1, 2009 - March 31, 2010
                                                                              Semiannual Report to Congress




1) The Office of Operations’ Staffing Plans Under the American Recovery and Reinvestment
Act of 2009

  In this review, we reported that SSA’s Office of Operations developed an appropriate plan for its $251 million
  in Recovery Act funds to process disability and retirement workloads. However, we identified some matters
  for attention to ensure Recovery Act funds are properly accounted for, efficiently used and their benefits fully
  disclosed. We determined that SSA uses a cost allocation methodology that charges Recovery Act funds
  based on the average workyear costs. The charges based on this methodology are approximately $195
  million. However, the actual costs of the 1,531 new employees will only be approximately $101 million.
  Further, we reported that SSA’s workload plan should have disclosed the estimated $18 million in training
  costs because it is time spent in training rather than processing disability and retirement workloads. Finally,
  SSA’s performance measures do not identify all the anticipated benefits of the Recovery Act funds. We
  recommended SSA disclose its cost allocation methodology. The Agency issued an updated plan disclosing
  both SSA’s cost allocation methodology and training costs.

2) The Office of Disability Adjudication and Review’s Staffing Plans Under the American
Recovery and Reinvestment Act of 2009

  In this review, we reported that SSA allocated $30 million to the Office of Disability and Adjudication
  Review (ODAR) during FY 2009 and another $93 million in FY 2010 to hire administrative law judges and
  support staff. However, at the time of our review, we estimated that the actual cost of the new hires will be
  less than ODAR planned for FY 2009. Further, we found the final staffing plan submitted to the Office of
  Management and Budget (OMB) did not provide information on a number of areas that would be useful
  to those relying on the staffing plan.

3) Disability Determination Services’ Staffing Under the American Recovery and
Reinvestment Act of 2009

  We reported that SSA developed an appropriate plan for the $87 million in Recovery Act funds it was given to
  process disability workloads. However, we identified matters for consideration to ensure Recovery Act funds
  are properly accounted for and efficiently used and their benefits are fully disclosed. We reported that having
  only one performance measure for Disability Determination Services (DDS) in the Disability and Retirement
  Workload Plan will not disclose all the anticipated benefits of the Recovery Act funds. We recommended SSA
  include additional performance measures in its Disability and Retirement Workload Plan related to minimizing
  the average processing time for initial disability claims, the number of periodic continuing disability reviews
  processed, initial claims pending, and overall processing time for disability claims.




October 1, 2009 - March 31, 2010                                                                                9
Semiannual Report to Congress




4) Office of Acquisition and Grants’ Staffing to Process American Recovery and
Reinvestment Act of 2009 Acquisitions

  We reported that SSA’s Office of Acquisition and Grants (OAG) has taken steps to ensure it has sufficient
  qualified staff to process Agency acquisitions funded with Recovery Act dollars. The Agency hired new staff
  and assigned them to existing workloads to allow existing staff to handle the Recovery Act workloads. We
  also determined that SSA had an internal certification program for contract officers (CO) and Program and
  Project Managers in place before converting to OMB’s Office of Federal Procurement Policy programs, but
  did not have a program for Contracting Officer Technical Representatives (COTRs). We found that eligible
  COs were either certified or received the necessary training and experience to become eligible to apply for
  Federal Acquisition Certification, including all COs processing Recovery Act awards. Using newly hired and
  existing acquisition staff, SSA should have sufficient and adequately trained and certified staff to process all
  its planned and actual Recovery Act acquisitions.
  Although SSA’s OAG has a database to document the names of staff who have taken the Agency’s required
  COTR training, we found the database was not updated as employees left the Agency or transferred from
  one Agency component to another. We requested SSA’s OAG consider periodically reconciling its database
  with SSA’s Office of Personnel database. Additionally, the Agency should continue its plan to implement the
  structured training program for COTRs and other individuals performing these functions to achieve standard
  competencies and training. Once SSA implements the program in July 2010, it will no longer need the
  COTR training database.

5) American Recovery and Reinvestment Act of 2009 Data Quality Reviews

  In this review, we determined whether SSA had established a process to perform limited data quality reviews to
  (1) identify material omissions and/or significant Recovery Act reporting errors and (2) notify the recipients of
  the need to make appropriate and timely changes. We also reviewed SSA’s process for monitoring recipient
  reporting of recovery funds for the quarter ended September 30, 2009.
  We found that SSA had established a process to perform limited data quality reviews to (1) identify material
  omissions and/or significant Recovery Act reporting errors and (2) notify the recipients of the need to make
  appropriate and timely changes. We also reviewed SSA’s process for monitoring recipient reporting of
  recovery funds for the quarter ended September 30, 2009, and found that staff and management were
  following the policies and procedure they put in place to review contractor reporting.




10                                                                           October 1, 2009 - March 31, 2010
                                                                              Semiannual Report to Congress




Impact of State Budget Issues on the Social Security Administration’s Disability Programs

  Federal regulations state, “Subject to appropriate Federal funding, the State will, to the best of its ability,
  facilitate the processing of disability claims by avoiding personnel freezes, restrictions against overtime work,
  or curtailment of facilities or activities.”
  However, to address budget deficits, some States have instituted, or are considering, furloughs for State
  employees—including staff at DDSs, which are fully funded by SSA. Additionally, some States have implemented
  other measures, such as changes in hiring procedures, that may affect disability claims processing in the
  DDSs. Our objective was to assess the impact of State budget issues on the SSA’s disability programs.
  State budget issues have affected SSA’s disability programs. At the same time that SSA has experienced a
  surge in new disability claims, State furloughs have affected the Agency’s ability to process claims—even
  though it has taken measures to address these issues. Additionally, State budget cuts have affected disability
  beneficiaries and recipients. At the time of our review, nine States had implemented, or were considering,
  furloughs for all DDS employees, and three States had implemented furloughs for some DDS employees.
  In the States furloughing all DDS employees, the DDSs will encounter a shortfall of capacity up to 14 percent
  because of furlough days. As a result of furloughs, we expect approximately 69,000 disability cases to
  be delayed in processing over the next 12 months. This wait will result in about $126.2 million in benefit
  payments being delayed to newly disabled claimants and from flowing into the economies of these States.
  The Act and Federal regulations give the Agency limited control over how the States set up and administer
  the DDSs, even though they are fully federally funded. However, SSA has been proactive in addressing
  the effect of furloughs, and some States have responded to the Agency’s efforts to exempt the DDSs from
  furloughs and hiring freezes.

Hearing Office Performance and Staffing

  In FY 2009, as a result of additional Agency funding, ODAR was able to increase the number of administrative
  law judges (ALJ), hearing office managers, and support staff. With this new hiring, ODAR’s staffing ratio
  increased to 5.1 thereby exceeding the Agency’s national goal of 4.5 staff per ALJ. However, there were a
  number of hearing offices with staffing ratios below 4.0 staff per ALJ.
  Our objective was to determine the staffing ratio and combination of staff skills in the ODAR hearing offices
  that maximize hearing office performance.
  In performing their duties, ALJs are assisted by decision writers and other support staff. ODAR’s staffing
  mix goals are to have at least 1.5 decision writers per ALJ and 2.5 other support staff per ALJ in each of
  its hearing offices. We found that the hearing offices that met or exceeded the 1.5 decision writer per ALJ
  staffing mix goal had, on average, almost a 9-percent higher productivity rate than those hearing offices with
  a ratio less than the goal. However, ODAR’s staffing ratio had not been adjusted to reflect senior attorney
  adjudicators who perform two roles—staffing duties when drafting decisions and ALJ duties when issuing
  fully favorable, on-the-record decisions.




October 1, 2009 - March 31, 2010                                                                                11
Semiannual Report to Congress




  In addition, we found that ODAR has begun using centralized units to assist hearing offices in processing
  their workloads. These units can supplement staffing and space shortages in hearing offices while providing
  management with greater flexibility to address unforeseen workload changes.
  We made four recommendations to the Agency to (1) focus resources on offices below a 4.0 staffing ratio,
  (2) consider modifying the staffing mix by increasing the number of decision writers per ALJ, (3) determine
  how the attorney adjudicators’ new duties of issuing decisions affect the staffing ratio and adjust the ratio
  based on this analysis, and (4) continue expanding the use of centralized pulling and writing centers. SSA
  agreed with all of our recommendations.

Prisoners’ Access to Social Security Numbers

  Our objective was to determine the status of corrective actions SSA had taken to address recommendations
  in our August 2006 report, Prisoners’ Access to Social Security Numbers, and assess the extent to which
  prisoners had access to SSNs.
  Some prisons allow inmates to work while incarcerated. While performing some of these duties, inmates
  may have access to other individuals’ SSNs. Although SSA had taken some steps to educate the correctional
  institutions about the potential risks associated with allowing prisoners access to SSNs, we determined that
  eight (62 percent) of the 13 States identified in our August 2006 report continued this practice. While prisons
  generally had some controls in place to safeguard SSNs, vulnerabilities still existed. Because of identity theft
  concerns and the recognition that SSNs are linked to vast amounts of personal information, some States no
  longer allowed prisoners access to SSNs.
  While we recognize SSA cannot prohibit prisons from allowing prisoners access to SSNs, we continue to
  believe it can help reduce potential threats to SSN integrity by encouraging States to limit SSN access. We
  encourage SSA to contact correctional officials in the eight States that continue to allow prisoners access to
  SSNs. We also encourage SSA to support legislation that would prohibit executive, legislative, and judicial
  agencies from employing prisoners in any capacity that would allow prisoners access to SSNs of other
  individuals.
  SSA responded that it will consider possible options, such as sending letters or contacting the correctional
  officials in the eight States that continue to allow prisoners’ access to SSNs. In addition, SSA stated it will
  develop a legislative proposal that would prohibit Federal, State, or local governments and private contractors
  from employing prisoners in any capacity that would allow access to full or partial SSNs.




12                                                                          October 1, 2009 - March 31, 2010
                                                                             Semiannual Report to Congress




Congressional Response Report: The SSA’s Fugitive Felon Program and the Martinez
Settlement Agreement
  Our objective was to address a request from the Subcommittee on Social Security to provide information on
  how the proposed Martinez class action settlement agreement would affect the Agency’s fugitive felon policy.
  Martinez challenged the SSA’s fugitive felon policy of basing payment suspensions solely on the existence
  of an outstanding felony arrest warrant rather than developing information to ensure that the individual
  was “fleeing.” As a result of the Martinez case, a tentative settlement was reached in which SSA policy will
  suspend Title II and deny Title XVI benefits only if the individual’s outstanding felony warrant was issued for
  one of three offenses: escape; flight to avoid prosecution, confinement, etc.; and flight-escape.
  We estimate that about 60.7 percent of individuals with outstanding warrants will be paid Title II and XVI
  benefits if the Martinez settlement agreement is approved. The remaining 39.3 percent will continue to
  have their benefits stopped. The 39.3 percent consists of:
  • About 0.7 percent of fugitive felons who have outstanding warrants with one of the three offense codes
  cited in the Martinez settlement agreement; and
  • About 38.6 percent who are probation or parole violators—since the Martinez agreement has no impact
  on this group.
  The settlement agreement, however, does not restrict SSA or the OIG’s data-sharing activities with law
  enforcement. Therefore, the OIG will continue to obtain data from law enforcement agencies on fugitive
  felons wanted for all Offense Codes and match that data with SSA’s records. Additionally, the OIG will
  share information in SSA’s records regarding the fugitive’s location (that is, address information) with law
  enforcement so that they can potentially arrest the fugitive.
  Note: The Martinez settlement was finalized after the completion of this report, issued in October 2009.




October 1, 2009 - March 31, 2010                                                                              13
Semiannual Report to Congress




Investigative Impact Initiatives
  OI examines and investigates allegations of fraud, waste, abuse, and mismanagement in SSA programs
  and operations. These allegations may involve benefit fraud, SSN misuse, violations by SSA employees,
  or fraud related to grants and contracts. Our investigations often result in criminal or civil prosecutions
  and the imposition of CMPs against offenders. These investigative efforts impact SSA program integrity by
  deterring those contemplating fraud against SSA in the future. Our work in the areas of program fraud,
  enumeration fraud, SSN misuse, and employee misconduct ensures the reliability of SSA programs and their
  future operations.




           Investigative Results
      October 1, 2009 - March 31, 2010
     Allegations Received               75,563
     Cases Opened                       3,251
     Cases Closed                        3,740
     Arrests                              303
     Indictments/Informations             432
     Criminal Convictions                 794
     Civil/CMPs                           69




14                                                                       October 1, 2009 - March 31, 2010
                                                                             Semiannual Report to Congress




                                  Cases Opened by Program Category
                                   October 1, 2009 - March 31, 2010

                                                         Other         Social Security
                    Employee Related                     0.55 %           Number
                         2.12 %                                            4.46 %




      Title XVI-Disability
                                                                                           Title II-Disability
            37.47 %
                                                                                                34.76 %




                                                                     Title II-Retirement
                             Title XVI-Aged
                                                                           16.58 %
                                  4.06 %




                                   Cases Closed by Program Category
                                    October 1, 2009 - March 31, 2010

                                                   Other            Social Security
               Employee Related                    4.81 %              Number
                    1.58 %                                              6.68 %




      Title XVI-Disability
            39.04 %                                                                        Title II-Disability
                                                                                                33.21 %




                                        Title XVI-Aged            Title II-Retirement
                                             3.5 %                      11.18 %




October 1, 2009 - March 31, 2010                                                                                 15
Semiannual Report to Congress




                                         SSN Misuse: Woman’s Identity Misused
                                         for More Than 20 years
                                           Acting on a referral from a Texas identity
                                           theft victim, our San Diego, California office
                                           investigated a California resident for using the
  Allegations Received by Source           victim’s SSN. For more than 20 years, the victim’s
  October 1, 2009 - March 31, 2010         identity had been used to obtain benefits from
 Law Enforcement                25,815     multiple Federal and state agencies. Further
                                           investigation determined that the perpetrator
 SSA Employees                  16,934
                                           used the victim’s identity to receive Title XVI
 Private Citizens               17,181     disability benefits since 1998.
 Anonymous                      3,722      Prior to her sentencing, the perpetrator pled
                                           guilty to identity theft and grand theft. She was
 Other                          9,892
                                           sentenced in November 2009 to serve 210
 Beneficiaries                  1,384      days’ incarceration and 3 years’ probation, and
 Public Agencies                 635       she was ordered to pay restitution of $101,845
                                           to SSA and an $800 fine.
 TOTAL                          75,563
                                         SSN Misuse: Task Force Uncovers
                                         $1 Million Fraud Loss
  Allegations Received by Category         Our Los Angeles, California office participated
  October 1, 2009 - March 31, 2010         in an investigation with the U.S. Postal Inspection
 SSI Disability                 29,197     Service Identity Theft and Economic Crime Task
                                           Force. The investigation revealed that a man
 Disability Insurance           27,698     used other individuals’ personal identifying
 SSN                            6,748      information, including their SSNs, obtained
                                           from mortgage and credit files, to acquire credit
 Old-Age, Survivors Insurance   4,349      cards.
 Other                          5,894      The individual used the credit cards to purchase
                                           merchandise and services that resulted in a loss
 Employee                       1,130
                                           of $1,047,321. He was indicted for use of
 SSI Aged                        547       unauthorized access devices, misuse of an SSN,
                                           and aggravated identity theft.
 TOTAL                          75,563
                                           After signing a plea agreement, the man was
                                           sentenced in November 2009 to serve 95
                                           months in Federal prison and was ordered
                                           to pay $1,047,321 to the various credit card
                                           companies and stores he victimized. He was
                                           also ordered to pay a special assessment of
                                           $300.



16                                                          October 1, 2009 - March 31, 2010
                                                                          Semiannual Report to Congress




SSN Misuse: N.C. Resident Obtains                     SSN Misuse: Deportee Returns
More Than $1 Million in Fraudulent Loans              and Applies for Retirement Benefits
  Our Atlanta, Georgia office participated in an        A joint investigation was conducted by our
  investigation with the U.S. Secret Service, which     Phoenix, Arizona office, the U.S. Department
  revealed a North Carolina man had been using          of Immigration and Customs Enforcement, and
  several SSNs to obtain fraudulent loans. The          the Department of State involving a Mexican
  investigation determined that the man used            national who filed for Title II retirement benefits
  SSNs belonging to others to acquire mortgages,        using the identity of another woman.
  credit cards, and automobile loans.                   The investigation revealed that the woman
  In October 2009, after pleading guilty to false       fraudulently filed for benefits using the SSN of
  statements on loan applications, bank fraud,          an individual who was not only receiving Title II
  aggravated identity theft, and misuse of an           disability benefits, but who also had previously
  SSN, the man was sentenced to 40 months’              reported that her identity had been stolen. The
  incarceration and 3 years’ supervised release,        victim’s identity had also been used to obtain a
                                                        fraudulent Arizona driver’s license, SSN cards,
  and he was ordered to pay restitution of
                                                        and a U.S. passport.
  $1,224,721 to various financial institutions.
                                                        Following her plea of guilty to reentry of a
                                                        removed alien and aggravated identity theft,
                                                        the previously deported Mexican national was
SSN Misuse: Senegal Man Makes False                     sentenced in January 2010 to 30 months’
Statements and Receives Three SSNs                      incarceration and 3 years’ of supervised release,
                                                        and she was ordered to pay a $200 special
  A Kansas City, Missouri office investigation          assessment.
  involved a man from the Republic of Senegal
  who attempted to apply for a third SSN by
  making false statements on his SSN application.
  The man (initially in the United States on a
  Student Visa) succeeded in obtaining three
  SSNs by providing almost identical identifying
  information, with slight variances to his place
  of birth. He stated that he applied for the SSNs
  in order to obtain new credit.
  In February 2010, after entering a guilty plea
  to making a false statement, the man was
  sentenced to serve 3 years’ probation and was
  ordered to pay a special assessment fee of
  $100.




October 1, 2009 - March 31, 2010                                                                              17
Semiannual Report to Congress




Employee Fraud: Former SSA Employee                       Employee Fraud: Former SSA Employee
Accesses Records of Church Study Group                    Convicted of Embezzlement
     Based on a referral from SSA’s Ft. Lauderdale          Acting on a referral from the Little Rock
     Teleservice Center, our Ft. Lauderdale, Florida        SSA office, our Little Rock, Arkansas office
     office conducted an investigation of an SSA            investigated an SSA Claims Representative for
     Teleservice Representative for exceeding his           unlawfully authorizing multiple critical payments
     authorized access of the SSA database. The             and directing the funds into the bank accounts
     investigation determined that the employee             of her two co-conspirators. Portions of those
     fraudulently accessed the SSA database of 17           funds were withdrawn and the monies were paid
     individuals, and many of these individuals were        to the employee as part of a kickback scheme.
     females he met at a church study group. The            The employee was subsequently terminated from
     employee queried the SSA database at least 56          SSA in September 2008. On October 8, 2009,
     times in a five-month period.                          after pleading guilty to conspiracy to defraud
     The employee was subsequently terminated in            SSA, the former employee was sentenced to
     September 2009. On October 29, 2009, after             1 year and 1 day imprisonment and 2 years’
     a jury found him guilty of intentionally exceeding     supervised release, and she was ordered to pay
     the authorized access to a computer, the former        restitution of $99,082 to SSA. The restitution
     employee was sentenced to 1 year in prison,            amount is owed jointly and severally with one
     followed by 1 year of supervised release, and          of the co-conspirators.
     he was ordered to pay a $425 court fee.                In June 2008, as a result of an indictment for
                                                            conspiracy and theft of public money, one of the
Employee Fraud: Former SSA Employee                         co-conspirators entered in a pretrial diversion
Convicted of Using SSA Computers                            agreement. The co-conspirator was ordered to
to Misbrand Pharmaceuticals                                 pay restitution of $2,550 to SSA. The other co-
                                                            conspirator, after pleading guilty to conspiracy,
     Based on a request from the U.S. Food and Drug
                                                            was sentenced in September 2009 to 10
     Administration/Office of Criminal Investigations,
                                                            months’ community confinement and 4 years’
     our Philadelphia Field Division/Special
                                                            probation, and was ordered to pay restitution
     Projects Team investigated an SSA Information
                                                            of $99,082 to SSA (jointly and severally with
     Technology Specialist. The employee used
                                                            the former employee).
     his government computer to divert expired or
     suspected counterfeit prescription drugs to a
     Maryland pharmacist.
     The employee resigned in January 2010.
     Following his plea of guilty to misbranding of
     pharmaceuticals, the former employee was
     sentenced in January 2010 to serve 3 months’
     home confinement and 3 years’ supervised
     probation, and he was ordered to pay a court
     fee of $100.




18                                                                          October 1, 2009 - March 31, 2010
                                                                            Semiannual Report to Congress




Hurricane Response Efforts
  We continue to be actively involved in pursuing investigations of fraud related to Hurricanes Katrina and
  Rita and helping SSA prepare for similar events in the future. Because the SSN is a key identifier for various
  disaster assistance programs, we have been a critical partner in multi-agency investigations of this type of
  fraud. In fact, we have assigned an agent to the DOJ’s Hurricane Katrina Fraud Task Force in Louisiana,
  where we have been involved in numerous joint investigations of hurricane-related fraud.
  Since the inception of the Task Force, OI has secured 70 indictments and 67 convictions of individuals for
  hurricane-related fraud. For this reporting period, our investigators secured 6 indictments and 8 convictions
  of individuals for hurricane-related fraud.

  FEMA Recipients Use False Addresses                     Alabama Man Commits Disaster Fraud
  to Receive Disaster Relief
                                                             Agents from our Birmingham, Alabama office,
     Our Birmingham, Alabama office and the                  along with the Hurricane Katrina Fraud Task
     Hurricane Katrina Fraud Task Force jointly              Force, investigated a man who used a fraudulent
     investigated six women who fraudulently                 SSN to file a disaster assistance claim with
     received Federal Emergency Management                   FEMA.
     Agency (FEMA) disaster assistance due to
     Hurricanes Katrina and Rita. The investigation          Following the man’s plea of guilty to theft
     revealed that the women filed seven fraudulent          of government funds, he was sentenced in
     FEMA claims using false SSNs, and claimed               November 2009 to serve 3 years’ probation
                                                             and was ordered to pay restitution of $2,000
     Louisiana residence, even though they did not
                                                             to FEMA.
     reside in Louisiana during the hurricanes.
     Four of the women pled guilty to theft of            Woman Uses Addresses of Condemned
     government funds and were sentenced in               Property to Collect Disaster Funds
     November 2009 to serve 3 years’ probation.
     A fifth woman pled guilty to conspiracy to              Our Baton Rouge, Louisiana office, along
     defraud the government and was sentenced to             with the National Disaster Fraud Task Force,
     serve 5 years’ probation. In addition, two of           investigated a woman who, in the aftermath
     the women were ordered to pay restitution of            of Hurricane Rita, used a fraudulent SSN to
     $4,358 each to FEMA, two others were ordered            apply for a grant from the Louisiana Road Home
     to pay restitution of $2,000 each to FEMA, and          Program. In addition, her grant application
     one of the women was ordered to pay restitution         contained an address of a property condemned
     of $12,716 to FEMA.                                     prior to Hurricane Rita.

     The remaining woman pled guilty to theft of             In October 2009, after pleading guilty to theft
     government funds and, in December 2009, was             of government funds, the woman was sentenced
     sentenced to serve 3 years’ probation and was           to 1 day of incarceration, 8 months in a halfway
     ordered to pay restitution of $2,358 to FEMA.           house, and 3 years’ supervised probation.
                                                             Additionally, she was ordered to pay restitution
                                                             of $55,600 to the state of Louisiana Office of
                                                             Community Development.



October 1, 2009 - March 31, 2010                                                                             19
Semiannual Report to Congress




Fugitive Felon Enforcement Program
  The OIG’s Fugitive Felon Enforcement Program identifies individuals reported to have outstanding felony
  arrest warrants and outstanding warrants for parole and probation violations. SSA shares its location
  information for wanted felons with local law enforcement agencies to assist in their apprehension efforts. In
  turn, these agencies advise SSA on the disposition of the warrant so that appropriate administrative action
  on the benefits may be taken.

                                                               OIG’s Management and
                 Martinez vs. Astrue                           Fugitive Enforcement Program
 In October 2008, SSA’s Fugitive Felon Program was
 challenged by a group of litigants known collectively           Our data-sharing efforts with law enforcement
 as “Martinez,” the name of the original plaintiff.              agencies contributed to the arrest of 3,651
 This group challenged the Agency’s policy and                   subjects during the reporting period, and over
 procedures in applying non-payment actions to                   91,000 arrests since the program’s inception
 fugitive felons and non-selection of fugitive felons            in 1996. The following are some examples
 as representative payees. Upon the advice of DOJ,               of fugitive felon activities during the past six
 SSA decided to settle this litigation and change its            months.
 processing of certain fugitive felon non-payments               • OIG agents and members of the U. S.
 and representative payees.                                      Marshals Service Southwest Regional Fugitive
 As of April 1, 2009, SSA policy has been to suspend             Task Force in Atlanta, Georgia arrested an SSI
 or deny Title II, Title VIII and Title XVI payments, or to      beneficiary wanted on an outstanding warrant
 prohibit an individual from serving as a representative         dated December 18, 2009. The subject was
 payee, only if the individual’s outstanding felony              arrested for Failure to Register as a Sex Offender
 warrant was issued for one of the following three               as part of a joint effort to identify and arrest
 offenses: escape; flight to avoid prosecution,                  egregious felons.
 confinement, etc.; and flight-escape. However, SSA              • The Onondaga County Sheriff’s Office in
 may use all warrant information in determining an               Syracuse, New York reported the arrest of a
 individual’s suitability to serve as a representative           wanted subject for an outstanding probation
 payee.
                                                                 violation warrant issued October 19, 2009. The
 The Martinez settlement does not affect SSA’s policy or         subject, an SSA beneficiary, was on probation
 procedures for processing Title II, Title VIII or Title XVI     stemming from a Larceny charge.
 payments or representative payee actions for cases
                                                                 • The Onondaga County Sheriff’s Office in
 involving outstanding parole or probation violation
                                                                 Syracuse, New York reported the arrest of a
 warrants. Nor does the Martinez settlement affect
                                                                 wanted subject for a felony bench warrant
 OIG’s data-sharing activities with law enforcement.
                                                                 issued November 6, 2009. The subject, an SSI
 OIG will continue matching subjects wanted for all
                                                                 beneficiary and sex offender, failed to register
 offense codes and share SSA’s location information
                                                                 his address as required by Megan’s Law and
 with the warrant-issuing law enforcement entity.
                                                                 absconded from supervision.
 Additionally, the Martinez settlement applies to all
 jurisdictions including the Second Circuit (New York,           • The San Bernardino County Sheriff’s Office
 Connecticut, and Vermont) where fugitive activities             in San Bernardino, California reported that
 had been curtailed, based on prior litigation. Data-            the FBI Inland Regional Apprehension Team
 sharing for all offense codes now applies to this               arrested a wanted subject based on a warrant
 Circuit, and subjects wanted for any of the three               dated October 6, 2009. The subject, an
 offense codes mentioned above can be referred to                SSI beneficiary was wanted for a charge of
 the Agency for appropriate action.                              Attempted Murder.

20                                                                          October 1, 2009 - March 31, 2010
                                                                              Semiannual Report to Congress




Legal Impact Initiatives
  Section 1140 Enforcement
  In our enforcement of Section 1140 of the Act, OCIG has learned of multiple Internet Web sites that appear
  designed to mislead visitors to believe that they are visiting SSA’s official Web site, or a Web site affiliated
  with SSA. Some of these Web sites receive revenue from advertisers, such as Social Security disability
  representatives, who capitalize on the Web site’s misleading character and attract clients through deception.
  Because the operators of many of these Web sites conceal their true identities, or are located outside of
  the United States, OCIG has begun pursuing the disability representatives and others who advertise on the
  offending Web sites, using the authority delegated to OCIG under Section 1140 of the Act.
  To date, all entities contacted have voluntarily agreed to cease and desist from advertising on the deceptive
  Web sites OCIG has identified. These efforts are ongoing.




October 1, 2009 - March 31, 2010                                                                              21
Semiannual Report to Congress




VALUE
The second goal of the OIG Strategic Plan is Value. All OIG initiatives strive to provide value to SSA,
the Congress, other key decision makers, and the public by delivering timely and reliable audit, investigative,
and legal products and services. To achieve the intended value, these products and services must effectively
meet the needs of all whom we serve while maximizing our available resources. To do this, we integrate
best-practice strategies and the newest technologies to increase our productivity and maximize our return on
investment to the public.

Value Attained Through Audits
  Many of our audits are focused on identifying SSA programmatic and operational areas where funds could
  be put to better use. In addition, we often question approaches and their accompanying costs, and we
  recommend alternatives to yield program and operational savings.
  During this reporting period, our auditors issued 42 reports, identifying over $1.3 billion in questioned costs
  and about $2.06 billion in Federal funds that could be put to better use. Some of our most notable audits
  are summarized below.

Full Medical Continuing Disability Reviews
  SSA is required to conduct periodic CDRs to determine whether individuals continue to be disabled. Our
  objective was to determine the financial impact to Disability Insurance and Supplemental Security Income
  programs as a result of conducting fewer full medical CDRs.
  The number of full medical CDRs conducted has decreased, particularly between FY 2004 and 2008 with
  a decline of approximately 65 percent. As a result, SSA estimates a backlog of more than 1.5 million full
  medical CDRs will exist at the end of FY 2010.
  SSA has made, and will continue to make, benefit payments to individuals who would no longer be eligible
  if full medical CDRs had been conducted when due.
  • From Calendar Year (CY) 2005 through CY 2010, we estimate benefit payments of between $1.3 billion
  and $2.6 billion could have potentially been avoided if full medical CDRs had been conducted when due.
  • Although SSA plans to conduct an increased number of full medical CDRs in FY 2011, the 1.5-million full
  medical CDR backlog will most likely remain. Therefore, we estimate between $556 million and $1.1 billion
  during CY 2011 could have potentially been avoided if full medical CDRs had been conducted when due.
  We recommended SSA continue to work with Congress to secure funds necessary to eliminate the existing full
  medical CDR backlog and conduct the CDRs that become due each year. To the extent resources are not
  available, SSA should report the reasons and associated impact on Federal benefit payments in its annual
  CDR Report to Congress.
  SSA partially agreed with our recommendation. According to SSA, the time it takes to prepare the annual
  CDR Report to Congress undermines the usefulness of reporting therein the reasons and associated impact
  on Federal benefit payments of not conducting all CDRs due each year. However, in accordance with the
  President’s commitment to transparency and open Government, we believe SSA should fully disclose this
  information to Congress as timely as possible, even if the annual CDR Report to Congress is not the best
  place to do so.


22                                                                         October 1, 2009 - March 31, 2010
                                                                                 Semiannual Report to Congress




Supplemental Security Income Recipients Eligible for Veterans Benefits

  Generally, individuals are not eligible for SSI if they fail to take all the appropriate steps to apply for all other
  benefits for which they may be eligible—including VA benefits.
  Our objective was to identify SSI recipients who were potentially eligible for VA benefits instead of SSI
  payments.
  VA administers a pension program that provides benefits to financially needy veterans who are aged or have
  disabilities unrelated to their military service. VA considers individuals disabled if they have been determined
  disabled by SSA. Veterans must also meet eligibility requirements related to their military service to qualify
  for VA pension benefits.
  We found that some SSI recipients appeared potentially eligible for VA benefits instead of SSI payments.
  Based on our review, we estimate SSA paid about $1.3 billion to approximately 22,000 SSI recipients who
  appeared to meet VA requirements for benefits. In addition, we estimate that SSA will continue to pay about
  $126 million in SSI payments over the next 12 months to individuals who appear eligible for VA benefits
  instead of SSI payments.
  VA benefits are generally of greater monetary value than SSI payments—so it is usually more advantageous
  for the individuals to receive VA benefits. Specifically, in FY 2007, the average monthly VA benefit was $709,
  whereas the average monthly SSI payment was $468. Therefore, if these individuals are in fact eligible for
  VA benefits, they could receive higher monthly benefit payments.
  We recommended SSA continue its efforts to work with VA to ensure individuals who should be receiving VA
  benefits instead of SSI payments are, in fact, receiving VA benefits.
  SSA agreed with the recommendation.

Contract with Mathematica Policy Research, Inc. for Services to Evaluate Youth Transition
Demonstration Projects

  Our objective was to ensure SSA received the goods and services for which it contracted and to review
  the services provided by Mathematica Policy Research, Inc. SSA awarded Mathematica a $46.8 million
  contract to support the development, implementation, and evaluation of Youth Transition Demonstration
  (YTD) interventions. SSA initiated this research to better understand how to support disabled individuals in
  reaching their full economic potential and in becoming less reliant on Social Security benefits.
  For the first three years of the nine-year contract period, SSA received the goods and services for which it
  contracted. However, based on a lack of demonstrated, tangible results achieved to date through this and
  other YTD-related projects, we question whether spending the $29.7 million remaining on this contract will
  yield any benefit to SSA. Also, SSA did not establish performance goals that could be objectively measured
  to allow for informed project funding decisions. Further, services provided and costs charged to SSA did
  not always adhere to contract terms and applicable regulations, resulting in overpayment of fixed fees and
  travel costs and disbursements to unauthorized subcontractors.
  We recommended that SSA (1) establish performance goals for the program benefits expected to result
  from continued expenditures, (2) establish key milestones that objectively measure progress, (3) continue




October 1, 2009 - March 31, 2010                                                                                   23
Semiannual Report to Congress




  YTD project funding only if program results or administrative savings are worth the continued project costs.
  We provided five additional recommendations addressing adherence to contract terms and applicable
  regulations.
  SSA disagreed with four of our recommendations and stated that inserting performance goals with respect
  to administrative savings or program benefits during the demonstration is inappropriate. SSA believed 1)
  there would be insufficient data to conduct a complete cost-benefit analysis, and 2) the YTD project’s success
  cannot be reliably predicted or measured before the research is completed.


Congressional Response Report: San Francisco Regional Management Training Forum

  Our objective was to respond to Senator Grassley’s July 16, 2009 letter requesting we (1) conduct an audit
  of SSA’s July 2009 training conference in Phoenix, Arizona; (2) determine the number of training conferences
  conducted by the Agency over the past eight years; and (3) provide information pertaining to all OIG
  investigations, audits, and evaluations conducted on conference events at SSA over the past five fiscal years.
  From July 7 to 9, 2009, the San Francisco Region conducted a Regional Management Training Forum at
  the Arizona Biltmore Hotel in Phoenix, Arizona. Approximately 670 SSA management officials from across
  the Region and Headquarters in Baltimore attended. The agenda included presentations from SSA and
  non-SSA speakers.
  We found the majority of the approximately $675,000 in costs incurred at the training forum was properly
  supported and in compliance with Agency guidance and applicable laws and regulations. However, we
  identified approximately $13,400 in questionable costs related to refreshments at an employee reception
  the first night of the training forum. In addition, the Region may have inappropriately accepted gifts and
  donations for the conference. Finally, regional staff could have maintained better contract procurement
  documentation related to the trainers.
  While the training conference was consistent with the Region’s five-year training plan, the Agency’s conference
  practices were inconsistent with its published policies calling for centralized approval and reporting on
  conferences. SSA management recently addressed this oversight issue by establishing new conference
  guidance.
  In terms of prior conferences, we determined SSA had held approximately 180 conferences since January
  1, 2001 for approximately 34,000 attendees at a cost to the Agency of about $26 million. Our office has
  conducted three audits and one investigation related to training conferences at SSA in the past five years.
  One audit of administrative law judge conferences and the investigation of a Diversity Conference identified
  Agency oversight issues.




24                                                                         October 1, 2009 - March 31, 2010
                                                                                Semiannual Report to Congress




Supplemental Security Income Payments to Parents or Relatives Not Supporting Children

  Generally, residents of public institutions are not eligible for SSI payments. However, in some cases, SSI
  recipients under age 18 remain eligible for payments while residing in institutions. Our objective was to
  assess SSA’s payment of SSI to parents or relatives serving as representative payees for children they were
  not supporting.
  We found that some parents/relatives serving as representative payees received SSI payments for children
  they were not supporting. Based on our review, we estimate that approximately 320 children resided in
  institutions, and their parents/relatives did not contribute to the cost of care at the institutions. These parents/
  relatives received approximately $8.3 million in SSI payments for children they were not supporting. In
  addition, we estimate the Government could realize potential savings of about $1.9 million per year if SSA
  limited these children to reduced SSI payments—similar to how children residing in certain medical facilities
  are limited to a $30 Federal SSI payment.
  For example, in one case, a 17-year-old SSI recipient resided in an institution for children with autism in
  which a third party paid for his care. He had not lived with his father since at least July 2000. His father
  served as his representative payee and received about $36,000 on behalf of his disabled son for the period
  July 2000 to May 2009. This child’s father earned about $98,000 in 2008—and this income did not have
  any impact on his son’s SSI payments.
  We recommend SSA consider whether it is equitable to reduce SSI payments to parents/relatives serving as
  representative payees for children they are not supporting. If SSA determines it is equitable to do so, the
  Agency should seek the legislative revisions needed to enact this change in policy.
  SSA agreed with the recommendation.




October 1, 2009 - March 31, 2010                                                                                   25
Semiannual Report to Congress




Value Attained Through Investigations
  During this reporting period, the efforts of our investigators yielded significant results arising from the
  successful prosecution of cases that we developed. Our investigators achieved over $173 million in monetary
  accomplishments, with over $29.5 million in SSA recoveries, restitution, fines, and settlements/judgments;
  and over $143.5 million in projected savings from investigations resulting in the suspension or termination
  of benefits.
  The following table represents the efforts of OI personnel nationwide to recover SSA funds paid in fraudulent
  benefits or through other illegal actions.

                                          SSA Funds Reported
                                     October 1, 2009 - March 31, 2010
                                   Recoveries                   $15,592,300
                                   Fines                            $889,533
                                   Settlements/Judgments            $495,766
                                   Restitution                  $12,929,476
                                   Estimated Savings           $143,941,121
                                   TOTAL                      $173,848,196


  The following case summaries are indicative of the more than 3,700 investigations that we closed during
  this reporting period. The cases we have highlighted illustrate the many instances where our investigative
  efforts have resulted in a significant return on investment.


Disability Program Fraud: Detroit Man                       Disability Program Fraud: Social Worker
Conceals Employment                                         Commits Disability Fraud
     In response to a complaint filed by a private             Acting on information supplied by the Murray,
     citizen, our Detroit, Michigan office investigated        Utah SSA office, our Salt Lake City, Utah office
     a Title II disability beneficiary. The investigation      investigated a Title II disability beneficiary who
     revealed the beneficiary worked as a metal                also served as the representative payee for his
     cutter and used his brother’s Social Security             daughter. The man concealed his employment
     number to conceal his earnings from SSA in                as a social worker and a part-time instructor
     an effort to continue to receive his disability
                                                               from SSA to continue to receive benefits for
     benefits.
                                                               himself and the child.
     Prior to his sentencing in October 2009, the
     man pled guilty to theft of government property.          After pleading guilty to Social Security fraud, the
     He was sentenced to serve 180 days’ home                  man was sentenced in January 2010 to serve
     confinement and 3 years’ probation, and he                42 months of supervised release (to include 6
     was ordered to pay restitution of $77,511 to              months’ home confinement) and was ordered
     SSA.                                                      to pay restitution of $126,847 to SSA.

26                                                                        October 1, 2009 - March 31, 2010
                                                                         Semiannual Report to Congress




Disability Program Fraud: Construction
Company Owner Conceals Work
  Based on information provided by the Harrison,
  Arkansas SSA office, our Little Rock, Arkansas
  office investigated a Title II disability beneficiary   Representative Payee Fraud: Woman Fails
                                                          to Report Child Left Custody
  for concealing his work activity. From April
  1997 through January 2007, the man owned                  Based on information submitted by the
  and operated a construction company.                      Somerset, Pennsylvania SSA office, our
                                                            Pittsburgh, Pennsylvania office investigated a
  In November 2009, after pleading guilty to theft          woman who received Title II mother’s benefits
  of government funds, the man was sentenced                and also served as the representative payee
  to 8 months’ incarceration and was ordered to             for her child’s Title II survivor’s benefits. The
  pay restitution of $108,789 to SSA.                       woman failed to notify SSA that, beginning in
                                                            February 1994 and continuing through April
Disability Program Fraud: Woman Hides                       2008, her daughter was not in her care and
Marriage to Receive Title XVI Benefits
                                                            custody.
  Our Des Moines, Iowa office conducted a                   In October 2009, after pleading guilty to
  joint investigation with the Housing and Urban            theft, she was sentenced to serve 18 months’
  Development/Office of Inspector General of a              incarceration and 2 years’ supervised release,
  woman who received Title XVI disability benefits          and she was ordered to pay restitution of
  and housing assistance. To continue receiving             $215,132 to SSA.
  benefits, the woman concealed her marriage
  and her spouse’s income from SSA.
  The woman was sentenced in December 2009,               Representative Payee Fraud: Woman
  after pleading guilty to theft of government            Loses Custody of Child
  funds, to serve 6 months’ incarceration and               Acting on a referral from the Cleveland, Ohio
  3 years’ supervised release, and she was
                                                            SSA office, our Cleveland office investigated
  ordered to pay restitution of $86,878 to SSA
                                                            a representative payee who received Title XVI
  and $17,939 to HUD.
                                                            benefits on behalf of her minor son. The woman
Representative Payee Fraud: Son Leaves                      failed to report that she and the child’s father
Mother’s Custody                                            lost custody of their son in November 2005, yet
                                                            she continued to receive benefits on behalf of
  Our Indianapolis, Indiana office investigated a
                                                            her child until October 2008.
  woman who served as the representative payee
  for her son’s SSI benefits. The woman failed              The woman pled guilty to SSA fraud and was
  to report that her son left her care and custody          sentenced to serve 3 years’ supervised release
  in July 2006.                                             and was ordered to pay restitution of $21,058
  As a result of our investigation, the woman               to SSA.
  pled guilty to theft of government funds and,
  in December 2009, was sentenced to 10
  months’ incarceration and 3 years’ supervised
  release, and she was ordered to pay restitution
  of $15,656 to SSA.

October 1, 2009 - March 31, 2010                                                                          27
Semiannual Report to Congress




Representative Payee Fraud: Child Never                    Deceased Payee Project: Man Continues
in Mother’s Care While Receiving                           to Receive Sister’s Benefits After Her
SSA Benefits                                               Death
                                                             Our Cleveland, Ohio office conducted an
     In response to information provided by the              investigation as part of the National Deceased
     Scottsbluff, Nebraska SSA office, our Omaha,            Payee Project (BIC-D), which identifies widows
     Nebraska office investigated a woman who                and widowers of Title II beneficiaries whose
     served as representative payee for her son’s            benefits continue to be paid after their death.
     Title II auxiliary benefits. The woman failed to        This investigation revealed that benefits
     disclose that her son was not under her care and        continued to be paid to a deceased beneficiary
     custody during any of the time that she received        after her death in July 2003. From July 2003
     his benefits; instead, the child had been living        until July 2008, the deceased’s brother withdrew
     with his father.                                        the benefits from her account and used the
     In October 2009, after pleading guilty to theft         money for his own personal gain.
     by deception, the woman was sentenced to                Following his plea of guilty to theft of public
     2 years’ probation and was ordered to pay               money, he was sentenced in October 2009 to
     restitution of $10,216 to SSA.                          serve 6 months’ home confinement and 5 years’
                                                             probation, and he was ordered to pay restitution
Deceased Payee Project: New Orleans                          of $64,638 to SSA.
Resident Continues to Receive Title II
Beneficiary’s Benefits After Mother’s Death
                                                           Deceased Payee Project: Daughter
      Our Baton Rouge, Louisiana office conducted          Continues to Receive Deceased Mother’s
      an investigation as part of the BIC-D. From          Benefits
      March 2002 to August 2007, a 55-year-old
      New Orleans resident and Title XVI recipient           As part of the BIC-D, our Jackson, Mississippi
      received and converted to his own use the Title II     office conducted an investigation of a daughter
      widow’s benefit payments made to a deceased            who continued to receive her deceased mother’s
      beneficiary.                                           Title II benefits after her death. The mother died
                                                             in November 2002, and the daughter used the
      Prior to his sentencing in November 2009, the
                                                             continuing funds for her own personal use.
      man pled guilty to theft of government funds.
      He was sentenced to serve 6 months’ home               In November 2009, after pleading guilty to
      confinement and 5 years’ probation, and he             theft of government funds, the daughter was
      was ordered to pay full restitution of $40,990         sentenced to serve 5 months’ incarceration and
      to SSA.                                                5 months of home confinement with electronic
                                                             monitoring, followed by 100 hours of community
                                                             service. She was also ordered to pay restitution
                                                             of $82,573 to SSA.




28                                                                      October 1, 2009 - March 31, 2010
                                                                              Semiannual Report to Congress




Cooperative Disability Investigations Program
  Our CDI Program continues to be one of our most successful initiatives, contributing to the integrity of
  SSA’s disability programs. CDI is a joint effort of the OIG, SSA, DDS, and State and local law enforcement
  personnel. Established in 1998 with Units in just 5 States, our CDI program now has 21 Units in 19 States.
  The Units work to obtain sufficient evidence to identify and resolve issues of fraud and abuse related to initial
  and continuing disability claims.
  The following CDI case summaries highlight major investigations we conducted during this reporting period
  which enhanced SSA program integrity and the reliability of SSA’s operations.


Woman Overstates Ailments While                               Truck Driver Fails to Report Work Activity
Applying for Title II and Title XVI Benefits
                                                                Our Baton Rouge, Louisiana CDI Unit
   The Houston, Texas CDI Unit investigated a                   investigated a 54-year-old man who was
   27-year-old woman who applied for Title II                   receiving Title II disability benefits due to severe
   and Title XVI disability benefits due to diabetes,           back pain. The man reported that he could not
   anxiety, and depression. During a consultative               drive or perform any type of physical labor due
   examination (CE), the woman appeared                         to his back condition. During a CDR, the man
   delusional and complained of hearing voices.                 was questioned about earnings from a trucking
   The woman reported limitations with lifting,                 company that appeared on his record. The man
   squatting, bending, standing, hearing, seeing,               advised that the earnings belonged to his twin
   memory loss, completing tasks, concentrating,                brother, who is a truck driver. The Baton Rouge
   and understanding. She also complained of                    SSA office referred the case due to the man’s
   evil thoughts and hearing voices. As a result                receipt of several phone calls occurring during
   of the woman’s behavior during the CE, she                   the CDR which appeared work-related.
   was diagnosed as having mood disorders. The
   Texas DDS referred this case to the Houston CDI              Our investigation revealed that the man worked
   Unit due to suspected malingering.                           full-time as a truck driver, and his income for
                                                                2009 exceeded $100,000. Upon being
   The CDI Unit’s investigation revealed that the               interviewed, the man admitted he had been
   woman lived in her own apartment with her                    untruthful with SSA about his condition.
   9-year-old son, visited with her neighbors and
   friends, “liked to party,” and occasionally cut              As a result of the CDI Unit’s investigation, SSA
   hair. The woman also advised our investigators               terminated the man’s Title II disability benefits,
   that when she lived in New Orleans, she went                 which resulted in an overpayment of $4,300.
   to the casinos to gamble and obtain free drinks,             This case was referred to the Office of Counsel
   on a daily basis.                                            to the Inspector General for possible Civil
                                                                Monetary Penalty assessment.
   The Texas DDS denied the woman’s application
   for Title II and Title XVI disability benefits.




October 1, 2009 - March 31, 2010                                                                                29
Semiannual Report to Congress




                                                        Man Conceals Self-Employment Income
Woman Embellishes Physical Limitations
While Applying for Disability Benefits                    Our New York, New York CDI Unit investigated
                                                          a 57-year-old man who was receiving Title
     The Iselin, New Jersey CDI Unit investigated a
                                                          II disability benefits due to back problems.
     49-year-old woman who applied for Title XVI
                                                          This investigation was based on information
     disability benefits due to severe back pain, a
                                                          obtained from an audit conducted by our
     swollen right leg, and a visual impairment. The
                                                          Office of Audit located in Kansas City. The
     woman alleged that those conditions limited
                                                          audit indicated the man was concealing his
     her ability to work, as she could not stand or
                                                          operation of an awards production business.
     walk for long periods and her vision impairment
                                                          The CDI Unit’s investigation revealed the man
     affected her ability to read. During her CE,
                                                          received approximately $150,720 in disability
     the CE provider found the woman’s eyes to
                                                          benefits to which he was not entitled.
     be completely normal and concluded that the
     woman had no physiologically-based visual            In October 2009, after pleading guilty to theft,
     loss. The New Jersey DDS referred this case          the man was sentenced to 5 years’ probation
     due to suspected malingering.                        and was ordered to serve a prison term of 12
                                                          weekends over the course of 2 years during his
     The CDI investigation determined that the woman
                                                          probationary period. He was also ordered to
     was able to read with no apparent difficulties
                                                          pay full restitution of $150,720 to SSA over the
     and walk with a normal gait. In addition, during
                                                          period of his supervision.
     an interview with our investigators, the woman’s
     chair unexpectedly collapsed, and the woman
     stood, giving no indication that the incident
     caused any pain or discomfort. Following the
                                                        Man Exaggerates Medical Symptoms
     incident, the woman remained standing for the
                                                        While Applying for Disability Benefits
     remainder of the interview.
                                                          Our Los Angeles, California CDI Unit
     The New Jersey DDS denied the woman’s
                                                          investigated a 49-year-old man who applied
     application for Title XVI disability benefits.
                                                          for Title II disability benefits due to severe anxiety
                                                          attacks and a phobia of going outside alone.
                                                          The man reported that he could not leave his
                                                          home unaccompanied, watched television
                                                          all day, and was unable to care for others.
                                                          The California DDS referred this case due to
                                                          suspected malingering.
                                                          Our investigation revealed that the man
                                                          functioned at a higher level than reported. It
                                                          was determined that he was able to go out
                                                          alone, care for his girlfriend’s children, and
                                                          drive himself to a club several times during the
                                                          week to dance and perform as a singer.
                                                          The California DDS denied the man’s application
                                                          for Title II disability benefits.

30                                                                    October 1, 2009 - March 31, 2010
                                                                                        Semiannual Report to Congress




         The following table highlights the successes of the CDI program, which yielded more than
         $117 million in SSA program savings during this reporting period.
                Cooperative Disability Investigations Program Results
                                     October 1, 2009 - March 31, 2010
                                      Allegations         Confirmed                SSA               Non-SSA
            State
                                       Received          Fraud Cases             Savings1            Savings2
            Arizona                        121                   62             5,437,784           2,672,278
            Arkansas3                       46                   23             1,970,076           1,109,339
            California4                    338                  145             9,643,265           8,556,583
            Colorado                        78                   56             4,626,659           2,621,825
            Florida                         71                   52             4,183,085           2,273,801
            Georgia                        178                  137            10,782,835           6,219,245
            Illinois                        63                   41             1,963,359           1,446,438
            Louisiana                       85                   41             3,472,821           2,035,129
            Massachusetts                   72                   29             2,355,851           1,488,934
            Missouri                        82                   45             3,685,632           2,074,912
            New Jersey                     101                   73             4,208,967           3,175,010
            New York                        96                   50             4,485,003           3,519,544
            Ohio                           296                  127            10,094,201           6,499,488
            Oregon                         114                  108             8,390,353           5,529,207
            South Carolina5                 22                   5               360,500              179,748
            Tennessee                       53                   55             4,596,375           2,090,446
            Texas6                         368                  270            21,619,352          13,400,698
            Virginia                       107                   76             5,784,797           3,793,232
            Washington                     116                  136             9,889,842           5,808,428
            TOTAL                         2,407               1,531          $117,550,757 $74,494,285
     1
       SSA program savings are reported at a flat rate of $90,125 for initial claims that are denied as a result of CDI
     investigations. When a CDI investigation supports the cessation/termination of an in-pay case, SSA program savings
     are calculated using a formula that takes into account the average number of years that SSA has determined that
     a person remains on its rolls, as well as the total percentage of CDRs that resulted in a suspension, termination, or
     reduction in benefits due to CDI investigations.
     2
       Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits
     as a result of a CDI investigation, using estimated or actual benefit amounts documented by the responsible agency.
     3
       The Little Rock, Arkansas unit was established on October 1, 2008.
     4
       California has two units, one in Los Angeles and the other in Oakland.
     5
       The Columbia, South Carolina CDI Unit was established on December 21, 2009.
     6
       Texas has two units, one in Dallas, and the other in Houston.


October 1, 2009 - March 31, 2010                                                                                             31
Semiannual Report to Congress




Value Attained Through Legal Initiatives
  OCIG’s efforts to administer the portion of the CMP program which deals with violators of Section 1129 of
  the Act maximize the resources available to us and create a positive return on investment. Section 1129 of
  the Act allows for the imposition of a CMP against those who make false statements or representations in
  connection with obtaining or retaining benefits or payments under Titles II, VIII, or XVI of the Act. In addition,
  CMPs may be used to penalize representative payees for wrongful conversion of payments made under the
  Social Security programs, and to penalize individuals who knowingly withhold a material fact from SSA.
  After consultation with the DOJ, OCIG is authorized to impose penalties of up to $5,000 for each false
  statement, representation, conversion, or omission. A person may also be subject to an assessment, in lieu
  of damages, of up to twice the amount of any resulting overpayment.
  The following table and cases highlight the value achieved through our Section 1129 efforts for this reporting
  period.




                       Civil Monetary Penalty Activity Under Section 1129
                                October 1, 2009 - March 31, 2010
                      Cases Received                                            1,001
                      Cases Initiated                                             74
                      Cases Closed                                               927
                      Penalties and Assessments Imposed                      $1,965,578
                      Number of Hearings Requested                                 8




32                                                                           October 1, 2009 - March 31, 2010
                                                                           Semiannual Report to Congress




Virginia Woman Engages in                                 Licensed Florida Recovery Agent
Representative Payee Fraud                                Conceal Work Activity to Collect
                                                          Disability Insurance Benefits
    A woman from Virginia received Title II Survivors
    benefits as the representative payee for her two          A Florida woman improperly collected Title
    daughters from March 2007 through February                II Disability Insurance Benefits (DIB) while
    2008 while they were not in her custody. On               engaging in substantial gainful activity as a
    February 28, 2007, her daughters were placed              licensed recovery agent for the State of Florida.
    in the custody of the Commonwealth of Virginia            In an interview with the OIG, the subject
    Department of Social Services. Her failure to             admitted that she made false statements in a
    report the changes in her daughters’ living               “Work Activity Report” because she did not want
    arrangements to SSA caused an overpayment                 SSA to terminate her benefits even though she
    in the amount of $16,680 ($8,340 per child).              knew it was wrong.
    OCIG imposed a civil monetary penalty of                  In a CMP action, OCIG recovered a $5,000
    $25,000 and an assessment in lieu of damages              penalty and a $46,736 assessment for a total
    in the amount of $16,680, for a total of                  recovery of $51,736 from the recovery agent.
    $41,680.


                                                          Man Collects More Than $48,000 in Benefits
                                                          Intended for Three Daughters
California Representative Payee Collects
Adult Son’s Benefits Without his Knowledge                    A Title II benefit recipient from Louisiana had
                                                              three daughters who resided with him until
    A California woman collected SSI on behalf of
                                                              2006, at which time they moved in with their
    her son while he was a minor and resided in her
                                                              mother. After they moved, he applied for
    home. When he turned 18, he moved to Texas
                                                              auxiliary children’s benefits on the girls’ behalf,
    and secured full-time employment. Although the
                                                              representing to SSA that his daughters still
    subject knew that her son engaged in substantial
                                                              resided with him. SSA approved the application
    gainful activity in Texas, she continued to collect
                                                              and over the next two years sent him monthly
    SSI benefits and converted 26 checks. In an
                                                              payments for each child totaling over $48,000.
    interview, the woman admitted that she never
                                                              The subject spent all the benefits meant for his
    used any of the payments for the beneficiary
                                                              daughters’ needs on himself.
    and converted all of the funds to her own use
    for a two-year period.                                    When confronted by SSA OIG, the man
                                                              readily admitted to the fraud and agreed to
    In a CMP action, OCIG imposed $60,000 in
                                                              repay the overpayment plus a penalty totaling
    civil monetary penalties against the subject. The
                                                              $70,000.00.
    subject has agreed to repay the overpayment
    of $21,033 through withholding of her own
    SSI benefits.




October 1, 2009 - March 31, 2010                                                                              33
Semiannual Report to Congress




Oregon Couple Fails to Report                            New Mexico Man Fails to Report
Operating Licensed Adult Foster Home                     Change in Work Activity
     An Oregon man applied for SSI payments in              A New Mexico man failed to report changes in
     2007 and made numerous false statements                his work activity while receiving DIB between
     to support his eligibility. He represented that        August 2005 and March 2009, resulting in an
     he had no income, that he had not worked               overpayment of at least $15,559. Moreover,
     since 2003, that he had never been accused             he admitted his failure to report his work activity
     or convicted of a felony, and that his wife only       to SSA, and he further admitted that he knew he
     received a modest income from Wal-Mart.                should have reported his work activity to SSA.
     However, a CDI investigation revealed that the         OIG proposed a penalty of $22,000 and an
     man, a former convicted drug smuggler, and             assessment of $31,118, for a total of $53,118.
     his wife operated a state licensed adult foster        The subject chose not to request a hearing in this
     home which yielded more than $8,000 per                matter, and the $53,118 CMP was imposed.
     month. He served as the primary caregiver for
     four disabled adults, while his wife held a full-
     time position as a pharmacist. His income was
     far greater income than he represented.             Texas Woman Fails to Report
                                                         Reconciliation with Husband
     The 10 false statements he made to SSA to
     obtain benefits to which he was not entitled            A woman in Texas accepted SSI benefits from
     yielded a $30,000 civil monetary penalty                SSA after reporting that she and her husband
     against him.                                            had separated. However, an OIG investigation
                                                             revealed that they had, in fact, reconciled and
                                                             were living together again. For more than two
                                                             years, the subject failed to truthfully report her
Representative Payee Keeps Benefits                          living arrangements and continued to accept
for Child Not in Her Custody
                                                             and cash SSI benefit checks.
     A woman in Tennessee, serving as rep payee
     for her own son, failed to advise SSA that the          The subject also made a false statement
     child had been in the physical custody of the           with regard to her living arrangements on a
     child’s father for an extended period of time.          Statement of Claimant or Other Person in 2008,
     The subject had not only continued to accept            in an effort to perpetuate her continuing fraud.
     and cash the benefit checks intended for                An OIG investigation discovered this situation,
     the child’s use and care, she also submitted            and after being interviewed by OI agents, the
     Representative Payee Reports to SSA on which            subject admitted to having moved back in with
     she made false statements regarding the child’s         her husband. The OIG imposed a CMP of
     living arrangements.                                    $46,338.

     OCIG opened a civil monetary penalty action
     against the subject, who ultimately entered into
     a settlement agreement with OCIG for a total
     CMP penalty of $36,000.




34                                                                      October 1, 2009 - March 31, 2010
                                                         Semiannual Report to Congress




Arizona Man Fraudulently Collects
Deceased Father’s Benefit Checks
    An Arizona resident served as Power of Attorney
    over his father, an SSA beneficiary. He failed to
    report his father’s death to SSA, and continued
    to fraudulently receive his benefits for more than
    28 months. The subject signed his deceased
    father’s name on benefit checks, cashed those
    checks, and used the funds for his own personal
    use. These actions resulted in an overpayment
    of at least $20,988.40.
    OCIG negotiated a settlement whereby the
    subject will pay a $28,000 penalty, plus an
    assessment of $20,988.40, for a total of
    $48,988.40.


Tennessee Man Fails to Report
Change in Work Activity
    A Tennessee man failed to disclose his change
    in work activity for at least 22 months while
    receiving DIB, resulting in an overpayment
    of $60,399. OCIG negotiated a settlement
    whereby the subject will pay a penalty of
    $10,000 and an assessment of $60,399, for
    a total of $70,399.




October 1, 2009 - March 31, 2010                                                   35
Semiannual Report to Congress




PEOPLE
The third goal of the OIG Strategic Plan is People. The collective effort of our employees continues to
be the driving force behind this organization’s success in meeting its mission. We provide an encouraging and
rewarding work experience with the goal of retaining these exceptional individuals. OIG leadership fosters
an environment where employees can realize their potential through training and developmental programs.
OIG components convene training sessions to inform their employees about new procedures at various levels
of our organization. In addition, the OIG Organizational Health Committee conducts an annual assessment
of employee satisfaction levels and addresses employee concerns.


Budget
  For FY 2010, our annual appropriation was $102.6 million, which supported an estimated end-of year staffing
  level of 590. The salaries and benefits of our employees accounted for 86 percent of our spending. We
  used the remaining 14 percent for necessary expenses such as travel, training, communications, reimbursable
  work authorizations and general procurements, as well as to provide for basic infrastructure needs such as
  rent and interagency service agreements. The FY 2010 budget supported our efforts to meet and exceed
  our expectations set forth in our Strategic Plan for Fiscal Years 2006 – 2010, Fifth Edition. The goals and
  accomplishments measured in our Strategic Plan are also published in the Annual Congressional Budget
  Justification.


Human Resource Planning and Management
  We actively pursue and work to retain the best possible employees. First, our staffing plan forecasts employee
  departures based on historical trends and human resource data, which allows us to establish optimal
  timeframes for recruiting new employees. Moreover, OIG managers monitor staffing to ensure that vacant
  positions are filled promptly, ensuring that OIG components have the ability to fulfill their respective missions.
  Our human resource specialists and recruiters actively seek out and participate in national and virtual career
  fairs in our ongoing effort to attract the best and brightest talent to OIG. Ongoing evaluation and updating
  of our recruitment displays and brochures continue to enhance our outreach efforts. Through these events,
  we are able to actively recruit underrepresented groups in the labor market, enabling us to maintain a truly
  diverse workforce. OIG hired seven individuals (35 percent of new hires) from minority groups during the
  first half of FY 2010. These efforts yielded increases in our minority population of Black males and females,
  Hispanic males and females, and Asian/Pacific Islander males. Once we identify the best candidates, we
  employ a structured interview process to fairly assess their skills and qualifications. This is a process that
  has been instrumental in predicting the future success of new employees. Through these efforts, we have
  hired 20 employees during the first half of FY 2010.
  Also, OIG’s inaugural Leadership Development Program (LDP), which was launched in April 2008 and
  ended in October 2009, was extremely successful. Of the eight participants, two are currently participating
  in SSA’s Senior Executive Service Candidate Development Program and five were promoted to leadership
  positions within OIG. The second offering of the LDP was announced in FY 09 and in January 2010, the
  four program participants began the first of several challenging program assignments.


36                                                                           October 1, 2009 - March 31, 2010
                                                                             Semiannual Report to Congress




Information Technology
  We provide and maintain our own information technology (IT) systems. Our IT specialists value state-of-
  the-art tools and place a high priority on ensuring that OIG employees have the latest proven technologies
  with which to perform their work.
  During this reporting period, OIG IT specialists worked to incorporate electronic case folder capabilities into
  our National Investigative Case Management System (NICMS). NICMS is already a model for investigative
  case management across the Federal Government. In addition, we have automated several administrative
  and business processes and will continue to proceed in this direction to save both time and money.
  In support of the President’s goal to expand electronic services, we maintain an Internet Web site that is
  both informative and useful to the public. A workgroup comprised of administrative specialists, attorneys,
  auditors and investigative personnel continually monitor the OIG Web site to ensure that information is
  accurate and up-to-date.
  Finally, our IT staff analyzes industry trends to find new technologies which may enhance our business
  processes. During this reporting period, we have continued to expand the use of virtual technologies and
  have begun to pilot virtual desktop infrastructure for both internal and remote use to reduce hardware and
  deployment costs and enhance data security. We have also utilized virtualization to decrease the number
  of physical servers in use, which has reduced power consumption and increased system up time. OIG IT
  Specialists continue to meet the challenge of providing a variety of IT support services for more than 90
  OIG offices throughout the country.


Outreach Efforts
  We are always seeking new ways to reach out to the wider Federal community as well as to members of the
  public. In a variety of venues, we share our mission of promoting integrity and excellence in Social Security
  programs and operations. These occasions are important opportunities to exchange information and forge
  partnerships. They also give us the chance to educate and inspire public confidence in Federal programs.
  The following are other examples of outreach conducted by OIG officials and personnel:
  • In November 2009, an Executive Order was issued on reducing improper payments and eliminating
  waste in Federal Programs. The Order included a number of provisions that require input from the Council
  of Inspectors General on Integrity and Efficiency (CIGIE). The OIG has been asked to serve as a point of
  contact for the CIGIE in working with OMB on this implementation.
  • The OIG continued its relationship with the National Association of Disability Examiners (NADE), as the
  Inspector General spoke at NADE’s national conference in Covington, Kentucky in October 2009.
  • OA stays abreast of work performed by the Federal Accounting Standards Advisory Board (FASAB), which
  considers and promulgates accounting concepts and standards for the federal government. OA attends
  FASAB’S bimonthly public meetings on a regular basis and periodically comments on preliminary and
  exposure draft documents. At the invitation of FASAB, OA has participated in public hearings in the past.



October 1, 2009 - March 31, 2010                                                                              37
Semiannual Report to Congress




  • OA staff has held leadership positions on the Federal Audit Executive Council’s Information Technology
  Subcommittee, as well as an appointment to the Information Security and Privacy Advisory Board. In both
  instances, OA provides input to key decision makers at OMB as well as the National Institute of Standards
  and Technology on matters related to information security, privacy, and IT audits.
  • The Resident Agent-in-Charge of our Batavia, New York office has volunteered to provide an optional,
  free presentation on Federal job opportunities after retirement for police officers, sheriff deputies, and New
  York State Troopers with more than 17 years on the job. This free, informational one-hour presentation is
  referred to as Transition Retiree Action Plan. These presentations are coordinated by the Monroe County
  Law Enforcement Council.

Volunteer Efforts
  • In January, a Human Resources Specialist in OIG’s OTRM participated in a week-long humanitarian
  mission in Guatemala City, Guatemala, assisting a dental team providing health services to approximately
  300 impoverished persons, most of whom were children. The employee has committed to a second trip
  planned for April 2010 to volunteer on a project to construct a community center that will serve impoverished
  children of the community. While there, in addition to lending his construction expertise to the effort, he will
  host clinics for the children, teaching Bible studies and English as a Second Language.
  • An agent from our Kansas City, Missouri office donated bone marrow to an anonymous patient. This was
  a significant procedure that required medical screening and injections (with side effects) before traveling to
  an out-of-state clinic to complete the donation procedure.
  • As part of his volunteer efforts, an agent from our Little Rock, Arkansas office has been involved with
  Mustang Missions, has delivered food to those in need at Thanksgiving, provided a Christmas to children
  in the orphanage in Morrilton, Arkansas, participated in the Adopt-a-Child for Christmas program every
  year, and helps feed the homeless at a local homeless shelter. He is also a regular contributor to the Food
  Bank, Rice Depot, Hope Alliance and he provides financial, clothing, and household item donations to
  an Arkansas homeless mission. Additionally, he supports the Centers for Youth and Families, Paws on the
  Pavement, Humane Society, Susan Komen Race for the Cure, and Juvenile Diabetes Research Foundation.
  • An Assistant Special Agent-in-Charge of our Atlanta, Georgia office is a volunteer with the Toys for Tots and
  the Helping Hands Organization, which obtains clothing and household items for those in need. He also
  counsels young adults with alcohol/drug addictions. Additionally, he volunteers at his church, assisting with
  fundraisers, including obtaining school supplies for various summer camps and food/clothing for Ministries
  United in Service and Training.


                                        A Special Thank You

             The diligent work, outstanding efforts, and many contributions
                 from our entire OIG staff make the accomplishments
              highlighted in this Semiannual Report to Congress possible.

     We would like to thank them for their dedicated spirit and many successes.

38                                                                          October 1, 2009 - March 31, 2010
                                                Semiannual Report to Congress




           Reporting Requirements
                                      and
                                   Appendices




October 1, 2009 - March 31, 2010                                          39
Semiannual Report to Congress




          Reporting Requirements

          This report meets the requirements of the Inspector General Act of 1978, as amended,
          and includes information mandated by Congress.



               Section                            Requirement                              Page(s)

              Section 4(a)(2)    Review of legislation and regulations                         N/A


              Section 5(a)(1)    Significant problems, abuses, and deficiencies               8 - 38


              Section 5(a)(2)    Recommendations with respect to significant problems,       8 - 13,
                                 abuses, and deficiencies                                    22 - 25

              Section 5(a)(3)    Recommendations described in previous Semiannual            Appendix
                                 Reports on which corrective actions are incomplete           F&G

              Section 5(a)(4)    Matters referred to prospective authorities and the         14 - 20,
                                 prosecutions and convictions that have resulted             26 - 31

             Section 5(a)(5) &
                                 Summary of instances where information was refused            N/A
              Section 6(b)(2)


              Section 5(a)(6)    List of audits                                             Appendix B


                                                                                             8 - 13,
              Section 5(a)(7)    Summary of particularly significant reports
                                                                                             22 - 25

                                 Table showing the total number of audit reports and
              Section 5(a)(8)                                                               Appendix A
                                 total dollar value of questioned costs

                                 Table showing the total number of audit reports and
              Section 5(a)(9)                                                               Appendix A
                                 total dollar value of funds put to better use

                                 Audit recommendations more than 6 months old for
             Section 5(a)(10)                                                               Appendix A
                                 which no management decision has been made

                                 Significant management decisions that were revised
             Section 5(a)(11)                                                                  N/A
                                 during the reporting period

                                 Significant management decisions with which the
             Section 5(a)(12)                                                               Appendix D
                                 Inspector General disagrees




40                                                                                October 1, 2009 - March 31, 2010
                                                                           Semiannual Report to Congress




    Appendix A: Resolving Audit Recommendations

    The following chart summarizes SSA’s responses to our recommendations for the recovery or
    redirection of questioned and unsupported costs. Questioned costs are those costs that are
    challenged because of a violation of law, regulation, etc. Unsupported costs are those costs that
    are questioned because they are not justified by adequate documentation. This information is
    provided in accordance with P.L. 96-304 (the Supplemental Appropriations and Recession Act of
    1980) and the Inspector General Act of 1978, as amended.


                Reports with Questioned Costs for the Reporting Period
                          October 1, 2009 – March 31, 2010
                                                                   Value              Value
                                                     Number
                                                                 Questioned        Unsupported
      A.	For which no management decision
         had been made by the commencement             28        $1,619,266,880       $59,598,586
         of the reporting period.
      B.	Which were issued during the reporting
         period.                                       8a        $1,283,536,262       $70,809,225


          	 Subtotal (A + B)                           36        $2,902,803,142      $130,407,811


      	 Less:


      C.	For which a management decision was
                                                       16        $1,523,821,584       $57,786,617
         made during the reporting period.


      	 i.	 Dollar value of disallowed costs.          13          $120,479,616       $57,430,085


      	 ii.	 Dollar value of costs not disallowed.     3         $1,403,341,968          $356,532

      D.	For which no management decision
         had been made by the end of the               20        $1,378,981,558       $72,621,194
         reporting period.


    ­a. 	See Reports with Questioned Costs in Appendix B of this report.




October 1, 2009 - March 31, 2010                                                                        41
Semiannual Report to Congress




      The following chart summarizes SSA’s response to our recommendations that funds be put to
      better use through cost avoidances, budget savings, etc.


          Reports with Recommendations that Funds Be Put to Better Use
               Reporting Period October 1, 2009 – March 31, 2010

                                                                        Number             Dollar Value
        A. For which no management decision had been made by
                                                                            17                $466,105,520
           the commencement of the reporting period.

        B. Which were issued during the reporting period.                   6a              $2,056,923,022


        		    Subtotal (A + B)                                              23              $2,523,028,542


             	 Less:

        C.	 For which a management decision was made during
            the reporting period.
          i. Dollar value of recommendations that were agreed to
                                                                            14                $417,679,668
             by management.

             (a) Based on proposed management action.                       14                $417,679,668


             (b) Based on proposed legislative action.                       0                            $0


          ii.	 Dollar value of costs not agreed to by management.            2                 $51,672,062


        		    Subtotal (i + ii)                                             16                $469,351,730

        D. For which no management decision had been made by
                                                                             8              $2,053,676,812
           the end of the reporting period.


      ­a. See Reports with Funds Put to Better Use in Appendix B of this report.




42                                                                                 October 1, 2009 - March 31, 2010
                                                                                 Semiannual Report to Congress




       Appendix B: Reports Issued

                            Reports with Non-Monetary Findings
                             October 1, 2009 – March 31, 2010
       Audit Number                                Report                                 Issue Date
                      Congressional Response Report: The Social Security
        A-01-09-29177 Administration’s Fugitive Felon Program and the Martinez             10/15/2009
                      Settlement Agreement
                      Office of Acquisition and Grants’ Staffing to Process
        A-15-10-11011 American Recovery and Reinvestment Act of 2009                       10/28/2009
                      Acquisitions
                         American Recovery and Reinvestment Act of 2009
        A-15-10-21045                                                                      10/30/2009
                         Data Quality Reviews
                      Fiscal Year 2009 Inspector General Statement on the
        A-02-09-19175 Social Security Administration’s Major Management and                 11/6/2009
                      Performance Challenges

        A-15-09-19124 Fiscal Year 2009 Financial Statement Audit                            11/9/2009

                      Fiscal Year 2009 Evaluation of the Social Security
        A-14-09-19047 Administration’s Compliance with the Federal Information             11/17/2009
                      Security Management Act

                         The Office of Operations’ Staffing Plans Under the
        A-09-09-29157                                                                      11/17/2009
                         American Recovery and Reinvestment Act of 2009

                         Impact of State Budget Issues on the Social Security
        A-01-10-11006                                                                      11/18/2009
                         Administration’s Disability Programs

        A-01-09-29056 Military Service Casualty Cases                                      12/17/2009

                         Disability Determination Services’ Staffing Under the
        A-07-09-29156                                                                      12/22/2009
                         American Recovery and Reinvestment Act

                         Congressional Response Report: San Francisco Regional
        A-05-09-29174                                                                      12/28/2009
                         Management Training Forum

                         The Office of Disability Adjudication and Review’s Staffing
        A-12-09-29140                                                                      12/31/2009
                         Plans Under the American Recovery and Reinvestment Act

                         The Social Security Administration’s Implementation of the
        A-03-09-29154                                                                        1/6/2010
                         E-Verify Program for New Hires

                         Congressional Response Report: Hearing Office
        A-07-10-21015                                                                       1/14/2010
                         Disposition Rates




October 1, 2009 - March 31, 2010                                                                           43
Semiannual Report to Congress




                       Reports with Non-Monetary Findings (Cont.)
                           October 1, 2009 – March 31, 2010
      A-12-08-28088 Hearing Office Performance and Staffing                                 2/1/2010

                       Sunshine Payee Corporation, a Fee-For-Service
      A-08-09-29106                                                                         2/5/2010
                       Representative Payee for the Social Security Administration

                    Management Advisory Report: Single Audit of the
      A-77-10-00001 Commonwealth of Massachusetts for the Fiscal Year Ended                2/12/2010
                    June 30, 2008
                       Alabama Disability Determination Service’s Business Process
      A-08-09-29163                                                                        2/17/2010
                       for Adjudicating Disability Claims
                       Congressional Response Report: Hearing Office Backlogs
      A-12-10-21039                                                                         3/1/2010
                       in Missouri

                    The Social Security Administration’s Compliance with Social
      A-02-09-19006 Security Number Replacement Card Issuance Provisions of                 3/4/2010
                    the Intelligence Reform and Terrorism Prevention Act of 2004


                       Management Advisory Report: Single Audit of the State of
      A-77-10-00004                                                                        3/12/2010
                       New York for the Fiscal Year Ended March 31, 2008


      A-08-10-11042 Prisoners’ Access to Social Security Numbers                           3/12/2010

                       The Social Security Administration’s Hiring and Training of
      A-13-09-19082                                                                        3/15/2010
                       Information Technology Specialists

                       Congressional Response Report: The Good Cause Provision
      A-01-10-21052                                                                        3/17/2010
                       Under the Fugitive Felon Program
                    The Social Security Administration’s Contract with Bankers
      A-15-09-19148 Business Management Services, Inc., Contract Number                    3/18/2010
                    SS00-08-60085

                       Congressional Response Report: Representative Payees Who
      A-13-10-11013                                                                        3/19/2010
                       Employ Beneficiaries or Provide Employment Services


      A-04-10-21047 Field Office Post-Entitlement Workload Statistics                      3/25/2010

                       Management Advisory Report: Single Audit of the State of
      A-77-10-00006                                                                        3/25/2010
                       Maine for the Fiscal Year Ended June 30, 2008

                       The Social Security Administration’s Government Purchase
      A-13-09-29027                                                                        3/25/2010
                       Card Program




44                                                                          October 1, 2009 - March 31, 2010
                                                                             Semiannual Report to Congress




                     Reports with Non-Monetary Findings (Cont.)
                         October 1, 2009 – March 31, 2010
                         Management Advisory Report: Single Audit of the State of
         A-77-10-00005                                                                3/26/2010
                         Illinois for the Fiscal Year Ended June 30, 2008

                         Controls Over Changes Made to Direct Deposit Routing
         A-02-08-28052                                                                3/26/2010
                         Numbers

                         An Individual Representative Payee for the Social Security
         A-15-09-19150                                                                3/31/2010
                         Administration in Los Angeles, California




October 1, 2009 - March 31, 2010                                                                       45
Semiannual Report to Congress




                            Reports with Questioned Costs
                           October 1, 2009 – March 31, 2010
        Audit
                     Issue Date                      Report                           Dollar Amount
       Number
                                   Supplemental Security Income Payments
     A-01-09-29113    12/28/2009   to Parents or Relatives Not Supporting                       $20,236
                                   Children

                                   Contract with Mathematica Policy
     A-06-09-19061    12/29/2009   Research, Inc., for Services to Evaluate                     $34,203
                                   Youth Transition Demonstration Projects

                                   Supplemental Security Income Recipients
     A-01-09-19031      1/6/2010                                                         $1,282,736,960
                                   Eligible for Veterans Benefits

                                   The Accuracy of the Garnishment of
                                   Title II Benefits by the Social Security
     A-15-09-19063     1/15/2010                                                                 $5,168
                                   Administration’s Court Ordered
                                   Garnishment System

                                   Management Advisory Report: Single
     A-77-10-00002     2/12/2010   Audit of the State of Texas for the Fiscal                   $14,840
                                   Year Ended August 31, 2008

                                   Management Advisory Report: Single
                                   Audit of the Commonwealth of
     A-77-10-00003      3/8/2010                                                                $16,025
                                   Pennsylvania for the Fiscal Year Ended
                                   June 30, 2008

                                   Administrative Costs Claimed by the
     A-09-09-19020      3/8/2010                                                               $728,123
                                   Arizona Disability Determination Services

                                   Follow-up: The Social Security
     A-04-09-19138     3/24/2010   Administration’s Controls over the Write-                $70,789,932
                                   Off of Title XVI Overpayments


                                                 TOTAL                                   $1,354,345,487




46                                                                            October 1, 2009 - March 31, 2010
                                                                              Semiannual Report to Congress




                         Reports with Funds Put to Better Use
                          October 1, 2009 – March 31, 2010

  Audit Number Issue Date                               Report                          Dollar Amount

                                   Supplemental Security Income Payments to
   A-01-09-29113    12/28/2009                                                              $10,234,689
                                   Parents or Relatives Not Supporting Children

                                   Contract with Mathematica Policy Research,
   A-06-09-19061    12/29/2009     Inc., for Services to Evaluate Youth Transition          $29,700,946
                                   Demonstration Projects

                                   Supplemental Security Income Recipients Eligible
   A-01-09-19031      1/6/2010                                                             $125,579,060
                                   for Veterans Benefits


                                   Administrative Costs Claimed by the Arizona
   A-09-09-19020      3/8/2010                                                               $2,182,741
                                   Disability Determination Services


                                   Individuals Receiving Social Security Cards After
   A-09-09-29004     3/26/2010                                                              $22,671,168
                                   Benefits Have Been Suspended


   A-07-09-29147     3/30/2010     Full Medical Continuing Disability Reviews            $1,866,554,418



                                      TOTAL                                              $2,056,923,022




October 1, 2009 - March 31, 2010                                                                          47
Semiannual Report to Congress




      Appendix C: Reporting Requirements Under the
      Omnibus Consolidated Appropriations Act of FY 1997

      To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208,
      we are providing requisite data for the first half of FY 2010 from the Offices of Investigations
      and Audit in this report.
      Office of Investigations
      We are reporting over $29.5 million in SSA funds as a result of our investigative activities in
      this reporting period (10/1/09 – 3/31/10). These funds are broken down in the table below.

                                       Investigative Activities

                         1st Quarter               2nd Quarter
                                                                                    Total
                      10/1/09 – 12/31/09         1/1/10 – 3/31/10

          Court
         Ordered           $6,413,176                $6,516,300                  $12,929,476
        Restitution

        Recoveries         $5,955,030                $9,637,270                  $15,592,300


           Fines            $344,324                  $545,209                    $889,533


       Settlements/
                            $333,650                  $162,116                    $495,766
        Judgments


         TOTAL           $13,046,180                $16,860,895                 $29,907,075




48                                                                       October 1, 2009 - March 31, 2010
                                                                                 Semiannual Report to Congress




      Office of Audit
      SSA management has informed us that it has completed implementing recommendations from
      7 audit reports during this time period valued at over $17 million.
      SALINA EMERGENCY-AID FOOD BANK (SFB), A FEE-FOR-SERVICE
      REPRESENTATIVE PAYEE FOR THE SOCIAL SECURITY ADMINISTRATION
      (A-07-09-19065, 7/29/2009)
      We recommended that SSA instruct SFB to return conserved funds according to SSA instructions. The
      implemented value of this recommendation is $1,143.

      BENEFIT PAYMENTS MAILED TO POST OFFICE BOXES (A-06-08-18097, 7/2/2009)
      We recommended that SSA correct 47 instances we identified where incorrect OASDI unearned income
      amounts were reflected on beneficiaries’ SSI records. The implemented value of this recommendation
      is $30,958.

      CONTRACT FOR THE BENEFIT OFFSET NATIONAL DEMONSTRATION PROJECT
      WITH ABT ASSOCIATES, INCORPORATED (A-05-08-18041, 3/12/2009)
      We recommended that SSA improve oversight of the BOND contract and similar contracts. The implemented
      value of this recommendation is $5,300,000.

      INDIRECT COSTS CLAIMED BY THE TEXAS DISABILITY DETERMINATION
      SERVICES (TX-DDS) (A-06-08-18092, 1/26/2009)
      We recommended SSA ensure TX-DDS bears no more than its fair share of indirect costs by working
      with TX-DARS and the Department of Education to develop and implement a methodology that allocates
      indirect costs in accordance with the relative benefits received by TX-DDS. The implemented value of this
      recommendation is $9,790,704.

      CONTRACT WITH LOCKHEED MARTIN GOVERNMENT SERVICES, INC.,
      FOR DIGITAL IMAGING SERVICES (A-04-08-18066, 11/20/2008)
      We recommended that SSA determine whether the requirement to forward all paper documents with
      a missing or damaged barcode to the responsible SSA component should be eliminated. We also
      recommended that SSA ensure State DDSs and SSA components review the appropriateness of the
      forwarding instructions in their SSA generated barcode. The implemented value of these recommendations
      is $1,615,464.

      MEDICAL CONSULTANT CONTRACTS (A-02-07-17050, 9/30/2008)
      We recommended that SSA ensure the records used to support payments to Medical Contracts are
      complete, accurate, and verified before making payments. The implemented value of this recommendation
      is $1,212.

      THE SOCIAL SECURITY ADMINISTRATION’S ABILITY TO REACH INDIVIDUALS
      USING THE SOCIAL SECURITY STATEMENT (A-15-07-17095, 1/11/2008)
      We recommended that SSA review alternative methods for delivering statements to individuals in foreign
      countries and select a process that allows these Statements to be delivered successfully. SSA should
      determine whether the Statements should continue to be mailed to foreign countries until a more reliable
      method of delivery is found. The implemented value of this recommendation is $411,000.




October 1, 2009 - March 31, 2010                                                                                  49
Semiannual Report to Congress




         Appendix D: Significant Management Decisions With
         Which the Inspector General Disagrees

         CONTRACT WITH MATHEMATICA POLICY RESEARCH, INC., FOR SERVICES
         TO EVALUATE YOUTH TRANSITION DEMONSTRATION PROJECTS
         (A-06-09-19061, 12/29/2009)
         Results of Review: For the first three years of the nine-year contract period, SSA received
         the goods and services for which it contracted. However, based on a lack of demonstrated,
         tangible results achieved to date through this and other YTD-related projects, we question
         whether spending the $29.7 million remaining on this contract will yield substantial
         benefit to SSA. Also, SSA did not establish specific performance goals that could be
         objectively measured to allow for informed project-funding decisions. In addition, services
         provided and costs charged to SSA did not always adhere to contract terms and applicable
         regulations, resulting in overpayment of fixed fees and travel costs and disbursements to
         unauthorized subcontractors.
         Recommendation: Establish key milestones tied to performance metrics that objectively
         measure the progress in achieving the benefits of this project to permit go/no-go decisions
         informed by quantifiable results.
         Agency Response: SSA disagreed with the recommendation.
         Corrective Action: Prior to entering into an agreement with Mathematica, SSA contracted
         with a research organization to conduct an analysis and provide a recommendation
         about whether the Agency should proceed with the project. SSA stated that this step was
         an extremely important decision point that demonstrated the Agency decided to move
         forward with the project only after conducting a detailed, thoughtful analysis.
         Further, part of the demonstration project decision included reviewing the previous results
         from prior demonstration projects, including the Youth Continuing Disability Review and
         the Disability Research Institute projects. Based on the information gathered, SSA approved
         moving forward with the project, understanding the Agency would incur significant up-front
         costs and may not see benefits until much later.
         Several deliverables allow SSA to determine if the project is on track. These deliverables
         include process evaluations to determine if the interventions are implemented according to
         design, and impact evaluations to determine if there are either increases in youth leaving
         the rolls or increases in earnings. SSA stated that all of these evaluations require sufficient
         time to pass before an accurate assessment can be made. The Agency does not believe
         conducting an audit early in the process will yield accurate results.




50                                                                         October 1, 2009 - March 31, 2010
                                                                                    Semiannual Report to Congress




        Appendix E: Collections from Investigations and Audits

        The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
        additional information concerning actual cumulative collections and offsets achieved as a
        result of OIG activities each semiannual period.


        Office of Investigations

                 Total Restitution Reported by DOJ as Collected for SSA

                                      Total Number
                                      of Individuals            Court Ordered            Total Restitution
                    FY                  Assigned                  Restitution               Collected
                                      Court Ordered             for This Period              by DOJ
                                       Restitution
                   2008                       765                  $22,975,145              See Footnote1

                   2009                       603                  $24,126,913              See Footnote1

                   2010
                                              227                  $10,388,379              See Footnote1
            (10/1/09 - 3/31/10)

                  TOTAL                     1,595                  $57,490,437             See Footnote1
        1
         DOJ migrated collection data to a new computer system and is working to generate reports that will
        provide us with this information.



                          Recovery Actions Based on OI Investigations

                                         Total Number of
                    FY                                                          Amount for Recovery
                                     Recovery Actions Initiated

                   2008                             1,862                             $40,040,214

                   2009                              954                              $23,376,566

                   2010
                                                     547                              $15,592,300
            (10/1/09 - 3/31/10)

                  TOTAL                             3,363                             $79,009,080




October 1, 2009 - March 31, 2010                                                                              51
Semiannual Report to Congress




Office of Audit
The following chart summarizes SSA’s responses to our recommendations for the recovery or redirection of
questioned and unsupported costs. This information is prepared in coordination with SSA’s management officials
and was current as of March 31, 2010.


                              SSA’s Responses to OIG’s Recommendations
                      Recovery or Redirection of Questioned and Unsupported Costs1

            Reports with
                             Questioned/           Management        Amount Collected Amount Written-Off/
   FY       Questioned                                                                                                Balance2
                           Unsupported Costs       Concurrence       or to be Recovered  Adjustments
               Costs

 2008           28          $2,409,411,231          $485,835,413        $220,945,347          $1,956,683,032        $231,782,852


 2009           28          $3,124,063,484        $1,644,114,942           $5,306,840        $1,405,303,989       $1,713,452,655


 2010            8          $1,354,345,487                $39,371              $39,371                      $0    $1,354,306,116


TOTAL           64          $6,887,820,202       $2,129,989,726        $226,291,5581        $3,361,987,021        $3,299,541,623


  1
      The amounts in the table regarding collections, recoveries, and write-offs/adjustments were not verified by the OIG.
  2
      Balance = Questioned/Unsupported Costs - Amount Collected or to be Recovered - Amount Written-Off/Adjustments




52                                                                                       October 1, 2009 - March 31, 2010
                                                                         Semiannual Report to Congress




        Appendix F: Significant Monetary Recommendations From
        Prior FYs for Which Corrective Actions Have Not Been
        Completed

        THE SOCIAL SECURITY ADMINISTRATION’S USE OF ADMINISTRATIVE
        SANCTIONS IN THE OLD AGE, SURVIVORS AND DISABILITY INSURANCE
        PROGRAM (A-07-07-17052, 9/19/2008)
        Results of Review: Between October 1, 2004 and June 30, 2007, there were 7,261
        Title II cases that SSA referred to the OIG with allegations of potential fraud that were
        not accepted for prosecution. Given that there were allegations of potential fraud, we
        would have expected that SSA would have considered imposing administrative sanctions
        for a significant number of these cases. However, we were only able to confirm that 61
        of the 7,261 cases were considered for administrative sanctions. While we do not know
        the percentage of the 7,200 cases where individuals should have had administrative
        sanctions imposed, we do know that individuals had administrative sanctions imposed for
        45 percent of the cases SSA documented as being considered for sanctions from October
        2000 through March 2008. Therefore, if SSA had pursued administrative sanctions on
        45 percent of the 7,200 cases, individuals could have had sanctions imposed totaling
        approximately $17.6 million.
        Further, between December 1, 2006 and September 12, 2007, there were 94,299 Title II
        overpayments posted to beneficiaries’ Social Security records. We reviewed a select number
        of these overpayments to determine whether they resulted from potentially sanctionable
        actions and whether they should have been referred to the OIG. Based on the results
        of our review of these overpayments, we estimate that at least 38,175 of the 94,299
        overpayments could have been referred to the OIG since the overpayments occurred
        because of potentially sanctionable actions. If SSA had pursued administrative sanctions
        on 45 percent of the 38,175 overpayments, individuals could have had sanctions imposed
        totaling approximately $105.8 million.
        Recommendation: Evaluate the current administrative sanctions process and implement
        necessary changes to ensure that all potential administrative sanctions are identified and
        proactively considered. In doing so, consider implementing a risk-based approach that
        focuses on sanctionable actions that result in significant overpayments.
        Valued at: $123,458,884 in funds put to better use.
        Agency Response: SSA agreed with the recommendation.
        Corrective Action: SSA identified Headquarters and regional office components that
        will be involved in an intercomponent workgroup to evaluate the current administrative
        sanctions process. The SSA workgroup convened and discussions were held to determine
        the necessary changes to ensure all potential administrative sanctions are identified and
        proactively considered. SSA planned to update the Program Operating Manual System
        and distribute to appropriate components for their necessary action by April 2010.



October 1, 2009 - March 31, 2010                                                                     53
Semiannual Report to Congress




       TICKET TO WORK AND SELF SUFFICIENCY PROGRAM COST EFFECTIVENESS
       (A-02-07-17048, 8/11/2008)
       Results of Review: Our audit found that approximately 3,800 of the 10 million beneficiaries,
       or less than one-tenth of 1 percent, who had received a Ticket by the beginning of FY 2005
       were Ticket Program participants in that year. These participants appeared to have had limited
       success in attaining economic self-sufficiency. Approximately one-third of the participants did
       not have earnings from work activity from October 2004 to December 2006. Of the remaining
       two-thirds who had earnings for at least some of these months, half were not employed
       as of December 2006. A comparative analysis of Ticket Program participants to disabled
       beneficiaries who received vocational services outside of the Ticket Program (non-program
       participants) showed a similar work activity pattern. Specifically, the percentage of beneficiaries
       with earnings on their records after receiving vocational services steadily decreased over time
       for both groups. Additionally, the Ticket Program did not generate savings for SSA.
       Recommendation: SSA should work with Congress to reform or end the Ticket Program if
       SSA determines the program is not having the desired impact and/or it is not cost-effective.
       Valued at: $138 million in funds put to better use.
       Agency Response: SSA agreed with the recommendation.
       Corrective Action: SSA reformed certain aspects of the Ticket to Work program by publishing
       new regulations in July 2008. Since that time, SSA has seen positive trends. Over 270,000
       beneficiaries are using their Ticket to get help finding a job. That is up 72 percent from the
       beginning of 2007. In 2008, 96,993 beneficiaries had their Ticket in use and were working.
       That is up from 59,443 in 2007, a 63 percent increase. After Mathematica Policy Research
       (MPR) completes the extended evaluation and analysis of the program, SSA will determine
       a course of action based upon MPR’s findings. If SSA determines that the program is not
       producing the desired impact, or is not cost-effective, it will work with Congress to develop
       an appropriate course of action.


       CONTROLS OVER MISCELLANEOUS PAYMENTS MADE THROUGH THE SINGLE
       PAYMENT SYSTEM (A-09-07-17119, 10/25/2007)
       Results of Review: Our audit disclosed that SSA’s controls to prevent or detect improper or
       duplicate miscellaneous payments were generally effective. However, SSA needed to improve
       its controls over the retention of supporting documentation for miscellaneous Single Payment
       System (SPS) payments and the recording of Social Security numbers for SPS payments issued
       to non-beneficiaries. Based on our review of a random sample of 275 death underpayments
       from the population of 327,580 non-beneficiaries, we found that SSA:
       • improperly paid an estimated $7.3 million to 11,912 non-beneficiaries;
       • did not retain adequate supporting documentation for an estimated $98 million in payments
       made to 50,030 non-beneficiaries;




54                                                                          October 1, 2009 - March 31, 2010
                                                                           Semiannual Report to Congress




       • did not obtain or record the SSNs for 176,029 (53 percent) of the 332,680 death
       underpayments issued to non-beneficiaries; and
       • paid improper duplicate payments of $27,480 to three individuals.
       Recommendation: SSA should establish an appropriate control to ensure the SSA-1724 or
       other written application for a death underpayment is retained.
       Valued at: $98,280,016 in questioned costs.
       Agency Response: SSA agreed with the recommendation.
       Corrective Action: SSA responded that it will explore appropriate controls to ensure retention
       of documentation for death underpayments. SSA will also establish appropriate controls as
       resources permit.


       IMPROPER PAYMENTS RESULTING FROM THE ANNUAL EARNINGS TEST (AET)
       (A-09-07-17066, 8/31/2007)
       Results of Review: Our audit disclosed that SSA did not adjust the benefit payments for
       all beneficiaries who were subject to AET. Based on a random sample of 250 beneficiaries
       for CY 2002 through 2004, we found SSA overpaid $393,117 to 112 beneficiaries and
       underpaid $44,264 to 16 beneficiaries. As a result, we estimate SSA overpaid about $313
       million to 89,300 beneficiaries and underpaid about $35 million to 12,800 beneficiaries.
       These payment errors primarily occurred because SSA did not process all records identified
       by its Earnings Enforcement Operation.
       Recommendation: SSA should review and process, as appropriate, all Earnings Enforcement
       Operation selections pending in the Office of Quality Performance since 1996.
       Valued at: $348,680,140 in questioned costs.
       Agency Response: SSA agreed with the recommendation.
       Corrective Action: SSA processed all selections from 2004 and is committed to addressing
       all selections from 2005 in a timely manner. All selections made prior to 2004 require manual
       review and processing by Operations staff. SSA thoroughly analyzed and evaluated the issues
       involved and determined that there is no possibility that these selections can be addressed via
       an automated solution. Additionally, Operations has indicated that current resources could
       not be redirected from ongoing claims processing workloads to process these selections.




October 1, 2009 - March 31, 2010                                                                         55
Semiannual Report to Congress




       Significant Monetary Recommendations From Prior
       Semiannual Report to Congress for Which Recent
       Corrective Actions Have Been Made
       There are no significant management decisions from the prior semiannual report for which
       recent corrective actions were made.




56                                                                   October 1, 2009 - March 31, 2010
                                                                            Semiannual Report to Congress




     Appendix G: Significant Non-Monetary Recommendations
     from Prior FYs for Which Corrective Actions Have Not Been
     Completed

     SOCIAL SECURITY NUMBER MISUSE FOR WORK AND THE IMPACT ON
     THE SOCIAL SECURITY ADMINISTRATION’S MASTER EARNINGS FILE
     (A-03-07-27152, 9/29/2008)
     Results of Review: Our review found that for Tax Year 2004, SSA’s Earnings Suspense File
     (ESF) contained approximately 111,000 wage items representing about $1.1 billion in wages
     that were removed from the Master Earnings File because about 49,000 numberholders (NH)
     disclaimed the wage items. Although SSA had procedures to assist NHs whose identities were
     being misused, such as placing newly established fraud indicators on their Numident records and
     issuing new (different) SSNs as appropriate, we found the correspondence sent to these individuals
     neither advised them about the effects of SSN misuse nor encouraged them to report suspected
     SSN misuse to the Federal Trade Commission and law enforcement.
     While SSA had several processes to detect some instances of SSN misuse in its records, such as
     isolating reporting anomalies related to children and deceased individuals during the Annual Wage
     Reporting process, we believe SSA needs to strengthen its controls to help prevent misuse of an SSN
     from continuing once identified. We found the Agency’s employer correspondence processes and
     employer liaison services did not inform employers about potential SSN misuse cases, although
     employers play an essential role in detecting and preventing SSN misuse. Further, the Agency had
     not established an automated process that would post subsequent wage items associated with SSN
     misuse to the ESF. Instead, the Agency generally relied on the public to inform it about repeated
     SSN misuse, and evidence showed this did not always occur.
     Recommendation: SSA should consider the development of a cost-effective method to
     automatically post subsequent wage items that have the same characteristics of previously disclaimed
     wage items to the Earnings Suspense File.
     Agency Response: SSA agreed with the recommendation.
     Corrective Action: SSA’s Office of Policy has provided guidance and agreed that the Deputy
     Commissioner for Systems (DCS) should begin implementation of the OIG recommendation. The
     Office of Policy contacted the Office of General Counsel (OGC) regarding the issue (i.e., posting
     wage items to the Earnings Suspense File (ESF) based on the fact that earnings for the same employer
     and Employer Identification Number were disclaimed by the worker in the prior year). OGC stated
     that an individual’s previous disclaimer of wages for the same employer constituted “satisfactory
     evidence” as to the invalidity of subsequent wages received from the same employer. This permits
     SSA to correct its records by placing the subsequent earnings in the ESF. The Office of Policy sees
     no legal impediment for DCS to begin implementation of OIG’s recommendation. The Office of
     Earnings, Enumeration and Administrative Systems plans to accomplish the recommendation with
     the release of Annual Wage Reporting Tax Year 2010 in January 2011.




October 1, 2009 - March 31, 2010                                                                            57
Semiannual Report to Congress




     Significant Non-Monetary Recommendations from Prior
     Semiannual Report to Congress for which Recent Corrective
     Action has been Made
     There are no significant management decisions from the prior semiannual report for which recent
     corrections were made.




58                                                                    October 1, 2009 - March 31, 2010
                                                                      Semiannual Report to Congress




         Glossary of Acronyms
           ALJ                Administrative Law Judge
           BIC-D              National Deceased Payee Project
           CDI                Cooperative Disability Investigations
           CDR                Continuing Disability Review
           CE                 Consultative Examination
           CMP                Civil Monetary Penalty
           CO                 Contract Officer
           COTR               Contracting Officer Technical Representative
           CY                 Calendar Year
           DDS                Disability Determination Services
           DIB                Disability Insurance Benefits
           DOJ                Department of Justice
           ERP                Economic Recovery Payment
           FEMA               Federal Emergency Management Agency
           FY                 Fiscal Year
           IO	                Immediate Office
           IT                 Information Technology
           LDP                Leadership Development Program
           NCC                National Computer Center
           NICMS              National Investigative Case Management System
           OA                 Office of Audit
           OAG                Office of Acquisition and Grants
           OCIG               Office of the Counsel to the Inspector General
           ODAR               Office of Disability and Adjudication Review
           OER                Office of External Relations




October 1, 2009 - March 31, 2010                                                                59
Semiannual Report to Congress




        Glossary of Acronyms (Cont.)
           OI               Office of Investigations
           OIG              Office of the Inspector General
           OMB              Office of Management and Budget
           OQAPR            Office of Quality Assurance and Professional Responsibility
           OTRM             Office of Technology and Resource Management
           Recovery Act     American Recovery and Reinvestment Act of 2009
           SSA              Social Security Administration
           SSI              Supplemental Security Income
           SSN              Social Security number
           the Act          Social Security Act
           Title II         Federal Old-Age, Survivors, and Disability Insurance Benefits
           Title VIII       Special Benefits for Certain World War II Veterans
           Title XVI        Supplemental Security Income
           VA               Department of Veterans Affairs
           YTD	             Youth Transition Demonstration




60                                                               October 1, 2009 - March 31, 2010
                      How to Report Fraud

The SSA OIG Fraud Hotline offers a means for you to
provide information on suspected fraud, waste, and abuse.
If you know of current or potentially illegal or improper
activities involving SSA programs or personnel, we
encourage you to contact the SSA OIG Fraud Hotline.


Call	...................................	1-800-268-0271
Write ................................	Social Security Administration
					                                    Office of the Inspector General
					                                    Attention: SSA Fraud Hotline
					                                    P.O. Box 17768
					                                    Baltimore, MD 21235
Fax ................................... 410-597-0118
Online .............................	www.socialsecurity.gov/oig

          To obtain additional copies of this report,
                 please visit our Web site at
                www.socialsecurity.gov/oig


                       SSA Pub. No. 85-007
Preventing Fraud, Waste, and Abuse
    www.socialsecurity.gov/oig




      Social Security Administration
      Office of the Inspector General
           SSA Pub. No. 85-007
